Report No. IE-2007-003        December 19, 2006




           Inspections and Evaluations

         Report on Survey Regarding
          Post-Government Service
          Employment Restrictions
                       DEPARTMENT OF DEFENSE
                      OFFICE OF INSPECTOR GENERAL


                              ViSION STATEMENT




"One professional team strengthening the integrity, efficiency, and effectiveness of
                Department of Defense programs and operations."



                                                                                               e-mail us at
                                                                                                  hotline@dodig.mil




                                                                                       800.424.9098   Commercial: 703.604.8799   www.dodig.mil/hotline
          Survey of DoD Senior Officials and Acquisition
          Workforce Regarding Post-Government Service
                               Employment Restrictions
                                                             December 2006

Who Should Read This Report and Why? DoD civilian and military
personnel responsible for administration, training and oversight of the
DoD ethics program should read this report and use the survey results to
focus ethics training on areas where needed.

What Was Identified? This report summarizes the findings,
conclusions, and recommendations in Part I of the Ethics Resource Center
report, “Department of Defense Acquisition Workforce and Senior
Officials post-Government Employment Survey Report: Findings,
Discussion, and Recommendations,” June 30, 2006, and incorporates Part
II, “Survey Response Tables.” The survey was sent to 9,044 DoD civilian
and military personnel – 2,050 General officers and Senior Executive
Service officials and 6,994 General Service (GS)-12 through GS-15
civilians and military equivalent pay grades. The survey response rate
was 35 percent. Although approximately 95 percent of respondents had
worked in the Federal Government for more than 5 years, only 69 percent
of GS-14/15 and military equivalent grade respondents had received
training on post-Government employment restrictions.

Respondents believed they understood the post-Government employment
restrictions. However, respondents did not believe other DoD personnel
fully understood, or always complied with, the restrictions. They also
generally believed the restrictions were only “somewhat clear.” This
suggests that either the respondents overestimated their own
understanding of the restrictions or merely recognized that the restrictions
are complex and difficult to apply.

Approximately 620 of 3,134 respondents stated that they knew someone
they believed had violated the restrictions. Only 159 respondents had
reported the alleged violation and more than 70 respondents were
dissatisfied with DoD response to the reported behavior.

How It Can Be Improved. The Standards of Conduct Office, DoD,
should periodically conduct a survey of the acquisition workforce and
senior officials to gauge the effectiveness of training on post-Government
employment restrictions. Particular training and communication
emphasis should be placed on violations that represent the highest risk to
the Department.




                              Department of Defense Office of Inspector General
                                                        Report No. IE-2007-003
                              i
Table of Contents

Executive Summary                                                                         i


Background                                                                               1

     Objectives                                                                          2
     Survey Design                                                                       2
     Expected Program Outcomes                                                           5

Survey Results                                                                           7

Appendixes
     A. Scope and Methodology                                                           21
     B. Survey Questionnaire                                                            25
     C. Expected Program Outcomes                                                       42
     D. Announcement of Survey                                                          43
     E. Email Invitation to Survey Participants                                         45
     F. List of Acronyms                                                                47
     G. Report Distribution                                                             48

Management Comments                                                                     49


Attachment
     Department of Defense Acquisition Workforce and Senior Officials post-
        Government Employment Survey Report: Survey Response Tables,
        Ethics Resource Center, July 25, 2006




                                          Department of Defense Office of Inspector General
                                                                    Report No. IE-2006-003
                                         iii
This Page Intentionally Blank




                  Department of Defense Office of Inspector General
                                            Report No. IE-2007-003
             iv
Background
           In April 2004, a DoD senior acquisition official plead guilty to conspiracy for seeking a
           post-Government job while negotiating with a major Defense contractor. Examples of
           improper and unethical behavior among Government employees have resulted in media
           accounts and public perceptions of a revolving door or other improper activities between
           the public and private sector. For example, media has recently reported on contractors
           offering extensive bribes to elected officials who subsequently attempt to bribe DoD
           officials in order to secure contracts for those contractors.

           Because of public concerns, the Office of the Inspector General, DoD, coordinated with
           the Standards of Conduct Office (SOCO), General Counsel, DoD (GC, DoD) to
           determine whether that office needed information on the effectiveness of ethics guidance
           provided to DoD personnel. The GC, DoD, through SOCO, establishes standards of
           ethical conduct and ethics guidance in DoD.

           On August 23, 2004, the GC, DoD requested that the Office of Inspector General (OIG)
           conduct a survey to determine the awareness and attitudes of DoD senior officials and the
           acquisition workforce concerning restrictions governing post-Government employment.

           Related Government Accountability Office Report. In April 2005, the Government
           Accountability Office (GAO) issued a report1 stating that DoD lacked the knowledge
           needed to determine whether local efforts are meeting the objectives of its ethics
           program. DoD primarily evaluated the performance of the Department’s ethics program
           in terms of process indicators–such as the number of ethics counselors and the time each
           devoted to counseling. GAO based its observations primarily on interviews with ethics
           officials, designees, or ethics counselors in 12 offices, including the offices of the
           Secretary of Defense, the Departments of the Army, Navy, and Air Force, and Defense
           Contract Management Agency. The GAO review did not include a survey of DoD
           personnel to determine if the target population actually received training or to assess the
           effectiveness of any training.

           DoD Guidance on Increased Ethics Training. The Deputy Secretary of Defense
           announced a need for increased ethics training in an October 25, 2004, memorandum on
           “Prevention of Violations of Post-Government Service Employment Restrictions.” The
           policy memorandum requires that DoD personnel who file Public Financial Disclosure
           Reports (SF 278) must annually certify they are aware of the disqualification and
           employment restrictions of:

                   •   Section 207, title 18, United States Code, “Restrictions on former officers,
                       employees, and elected officials of the executive and legislative branches,”

                   •   Section 208, title 18, United States Code, “Bribery, Graft, and Conflicts of
                       Interest,” and

                   •   Section 423, title 41, United States Code, the Procurement Integrity Act.



1
    GAO-05-341, “Defense Ethics Program: Opportunities Exist to Strengthen Safeguards for Procurement Integrity,”
    April 29, 2005
                                                              Department of Defense Office of Inspector General
                                                                                        Report No. IE-2007-003
                                                         1
           The memorandum also stipulated that DoD Components would deliver training on
           relevant Federal and DoD disqualification and employment restrictions as part of annual
           ethics briefings.

           Contractor Assistance - Ethics Resource Center. On June 16, 2005, the DoD IG
           contracted with the Ethics Resource Center (ERC) to conduct the survey as requested by
           GC, DoD. The ERC uses its 2005 National Business Ethics Survey® (NBES) 2 to help
           organizations sample employee perceptions on ethics issues and provide a baseline of
           awareness and attitudes that can be benchmarked against other enterprises. Hence, the
           NBES provides a credible framework for the ERC analysis of the DoD survey results.
           ERC submitted the results of the survey in two parts.3 This report summarizes the
           findings and discussions in Part I of the ERC Report. Part II, which includes the detailed
           response tables to each question, is included in this report.

           Objectives
           The announced objective was to survey the acquisition workforce as well as DoD senior
           executives and flag officers to determine their attitudes and awareness concerning
           restrictions on post-Government service employment.

           Secondary objectives were to identify areas for potential program evaluation, to identify
           management risks and program gaps, to educate agency employees about aspects of the
           ethics program, and to communicate to DoD personnel the importance of ethics in the
           Government.

           Survey Design
           In their request for assistance, the GC, DoD suggested an approach to the project and
           provided 15 hypotheses about the awareness and attitudes regarding the post-Government
           employment restrictions. The specific survey questions that address these hypotheses are
           in the list below. Some hypotheses were addressed in more than one question or as
           subsets to one main question. For example, hypotheses 9 through 11 were addressed in
           survey Question 7. Learning was addressed in Questions 8 through 18.

               1. That a percentage of DoD personnel are aware of the post-Government service
                  employment restrictions. (Questions 3 through 6)

               2. That a percentage of DoD personnel believe that if they violate these restrictions,
                  they will be subjected to adverse action. (Question 20)

               3. That a percentage of DoD personnel personally know someone who has violated
                  these restrictions and who was not subjected to investigation or adverse action.

2
    The ERC is an organization with experience in conducting ethics surveys. The NBES is a domestic national
    survey that validated much of the framework for analysis ERC applied in the DoD survey.
3
    Part I, “Department of Defense Acquisition Workforce and Senior Officials post-Government Employment
    Survey Report: Findings, Discussion, and Recommendations,” June 30, 2006, (the ERC Report), 98 pages. See
    Appendix A, “Scope and Methodology,” concerning ERC identified limitations of the report. The report is
    available upon request.
    Part II, “Survey Response Tables,” 130 pages.
                                                              Department of Defense Office of Inspector General
                                                                                        Report No. IE-2007-003
                                                         2
       (Questions 24 and 30)

   4. That a percentage of DoD personnel personally know someone who has violated
      these restrictions and who was investigated or subjected to adverse action.
      (Question 30)

   5. That a percentage of DoD personnel believe only senior personnel are
      investigated and prosecuted for violation of post-Government service
      employment restrictions. (Question 35)

   6. That a percentage of DoD personnel believe only junior personnel are
      investigated and prosecuted for violation of post-Government service
      employment restrictions. (Question 36)

   7. That a percentage of DoD personnel believe only procurement personnel are
      investigated and prosecuted for violation of post-Government service
      employment restrictions. (Question 37)

   8. That a percentage of DoD personnel believe they should request advice from an
      ethics counselor before leaving Federal service. (Questions 22-23)

   9. That a percentage of DoD personnel believe the current restrictions are an
      effective means to ensure integrity of Government decision-making. (Question 7)

   10. That a percentage of DoD personnel believe the current restrictions are
       insufficient to ensure integrity of Government decision-making. (Question 7)

   11. That a percentage of DoD personnel believe the current restrictions are overly
       restrictive to ensure integrity of Government decision-making. (Question 7)

   12. That the most effective way DoD personnel learned of these restrictions was
       through on-line training. (Questions 8-18)

   13. That the most effective way DoD personnel learned of these restrictions was
       through oral presentations. (Questions 8-18)

   14. That the most effective way DoD personnel learned of these restrictions was
       through group discussions. (Questions 8-18)

   15. That the most effective way DoD personnel learned of these restrictions was
       through reading ethics training materials. (Questions 8-18)

In close collaboration with the contractor, we developed a survey using the 15 hypotheses
to examine employee awareness and understanding of, and compliance and satisfaction
with, the post-Government employment restrictions. In analyzing results, we considered
three interrelated components (Figure 1) of an effective ethics and compliance program:

       •   Formal program elements;
       •   Ethical elements of organizational culture; and
       •   Expected program outcomes.


                                            Department of Defense Office of Inspector General
                                                                      Report No. IE-2007-003
                                        3
Building these components require management actions to set standards and
communicate these standards through training.




                       Formal Program             Program
                          Elements                Outcomes




                                    Organizational
                                       Culture




Figure 1. Interrelated components of an effective ethics and compliance program.

Formal Program Elements
The ERC followed the 2004 Federal Sentencing Guidelines for Organizations (FSGO) to
assess the formal elements of the DoD ethics program. Chapter 8 of the Guidelines
provides criteria in “Effective Compliance and Ethics Program.” The criteria are
available at http://www.ussc.gov/orgguide.htm. Accordingly, an organization must take
reasonable steps to:

       •   ensure that the organization’s compliance and ethics program is followed,
           including monitoring and auditing to detect criminal conduct;
       •   evaluate periodically the effectiveness of the organization’s compliance and
           ethics program; and
       •   have and publicize a system, which may include mechanisms that allow for
           anonymity and confidentiality, whereby the organization’s employees and
           agents may report or seek guidance regarding potential or actual criminal
           conduct without fear or retaliation.

Our survey questions were derived from the ERC diagnostic question bank and included
a number of questions regarding awareness and understanding of and compliance with a
specified set of post-Government employment restrictions. See Appendix B for the
questionnaire.

Organizational Culture
The FSGO requires an organization to “otherwise promote an organizational culture that
encourages ethical conduct and a commitment to compliance with the law.” However,

                                            Department of Defense Office of Inspector General
                                                                      Report No. IE-2007-003
                                        4
           neither the U.S. Sentencing Commission nor FSGO has defined what might constitute a
           desired organizational culture.

           The ERC identified a number of ethical elements of organizational culture that are
           specific, measurable, and strongly related to the generally expected outcomes of an
           effective ethics and compliance program. In this survey, ERC used the following
           questions as indicators4 of organizational culture:

                   •    whether employees hold themselves responsible for their decisions and
                        actions (Question 34);

                   •    whether employees are held accountable for their decisions and actions
                        (Questions 35, 36, and 37); and

                   •    whether DoD personnel who violate the laws and regulations regarding post-
                        Government employment restrictions will be investigated or subjected to
                        adverse action (Question 20).

           From responses to the five questions, ERC created a culture index. Survey participants
           who agreed or strongly agreed that employees were held accountable and that employees
           took responsibility for ethical behavior were rated as having a strong culture index.

           For data analysis, ERC drew on the NBES results, public and private sector institutional
           benchmarks and best practices, and extensive ERC research over the years. Inclusion of
           NBES questions allowed ERC to compare the DoD program performance against
           national survey data.

           Expected Program Outcomes
           The ERC approach to program evaluation is outcomes-based, which means program
           effectiveness is ultimately determined by whether expected program outcomes are
           achieved as a result of specific program activities. ERC looked at the following seven
           generally accepted program outcomes that contribute to an effective program.

               1. Employee awareness of the regulations

               2. Employee understanding of the regulations

               3. Compliance with the regulations

               4. Ethical decision-making by employees

               5. Willingness of employee to seek advice

               6. Willingness of employee to report concerns

               7. Satisfaction with management’s response to reported concerns



4
    The ERC has developed other indicators of organizational culture. Additional indicators would have added
    substantially to the length of the survey and were therefore not used here.
                                                              Department of Defense Office of Inspector General
                                                                                        Report No. IE-2007-003
                                                         5
For the DoD survey, Appendix C, “Expected Program Outcomes,” expands this list to 10
expected outcomes. The summary table has additional outcomes because the
questionnaire contains more than one question about some of the outcomes. For
example, a respondent had to answer questions about personal understanding of the
restrictions and beliefs about the understanding of other DoD personnel. The table also
shows separately respondent’s beliefs about the use of ethics in decision-making by
coworkers and supervisors, and whether the respondent believes someone violated
restrictions.

The overall response rate for the survey was 35 percent─3,134 respondents of 9,044 DoD
personnel who were invited to participate. The targeted population was the acquisition
workforce personnel at and above GS-12 or equivalent military pay grade and all DoD
senior officials. The ERC in consultation with DoD organized the population into three
Pay Groups composed of military and civilian DoD personnel, as follows:

   1. Pay Group I - GS 12 through 13/Military pay grades O-3 to O-4

   2. Pay Group II - GS 14 through 15/Military pay grades O-5 to O-6

   3. Pay Group III - Senior Executive Service members and Flag Officers

See Appendix A, “Scope and Methodology,” for description of universe, sample size,
sample selections, and response rates.




                                           Department of Defense Office of Inspector General
                                                                     Report No. IE-2007-003
                                       6
Survey Results
   Overview. The survey showed that respondents generally believed they understood the
   restrictions governing post-Government employment. However, respondents generally
   did not believe other DoD personnel understood, or always complied with, the
   restrictions. Approximately 620 of 3,134 respondents (20 percent) stated that they knew
   someone who they believed had violated the restrictions (Question 24). Only 159
   respondents had reported the alleged violation (Question 25). Questions
   26 (a through k) explored some of the reasons employees did not report violations. One
   of the common reasons for not reporting violations was an uncertainty that management
   would take corrective action.

   A survey alone is insufficient to determine root causes of self-reported impressions. For
   example, lack of understanding of what constitutes a violation and why it is important to
   report an actual violation could have prevented a respondent from making a report. As
   employee understanding of the restrictions improves, the number of alleged violations
   might decline, reporting might increase, or other positive changes could occur.

   Employee Encounters with Restrictions. To put survey results in perspective, we
   considered responses to Question 1, “About how often do you have to consider post-
   Government employment restrictions in your work?” All 3,134 respondents addressed
   Question 1. Figure 2 shows that over 40 percent of respondents in all pay groups rarely
   considered the post-Government employment restrictions. An evaluation of the DoD
   ethics program would include an evaluation of DoD training policies, procedures, and
   practices.

                      Affirmative Responses to Question 1 by Pay Groups

               100%

                90%

                80%

                70%

                60%
                                                                                                                45%
                                                                                                  46%
                50%                                                                                                   42%
                                                                                                                                                                               Pay Group I
                                                                                                                                                                               Pay Group II
                40%
                                                                                   31% 32%                                   27%                                               Pay Group III

                30%
                                                                       19%                                                                16%

                20%                               14%
                                                                                                                                                12%
                                             8%
                                                                                                                                                              4%
                10%               4%
                                                                                                                                                                       1% 0%

                 0%
                                       tly                                  l ly                           ly                    ve
                                                                                                                                      r
                                                                                                                                                                  ow
                                  en                                   na                             re                                                     kn
                              u                                    o                             Ra                         Ne
                           eq                               a   si                                                                                    n'
                                                                                                                                                         t
                      Fr                               cc                                                                                        Do
                                                   O


   Figure 2. How often do you have to consider post-Government employment
   restrictions in your work? (Q.1)
                                                                                                            Department of Defense Office of Inspector General
                                                                                                                                      Report No. IE-2007-003
                                                                                             7
Only 2,448 respondents answered Question 2, “Are these restrictions clear enough to
guide you?” Figure 3 combines two responses, “not very clear” and “not clear at all,”
that appeared to have little distinction. Figure 3 defines the combined responses as
“unclear” and shows the other optional responses.

                   Affirmative Responses to Question 2 by Pay Groups

            100%

             90%

             80%

             70%
                                                   58%
             60%                         55% 55%


             50%
                                                                                               Pay Group I
             40%                                                                               Pay Group II
                                  28%
                                                                                               Pay Group III
             30%            21%
                      20%                                   17% 19%
             20%
                                                                      12%       8%
             10%                                                                     5%
                                                                                          2%

             0%
                                                                r
                          r




                                                                              ow
                                              r
                        ea




                                                             ea
                                            a
                                         le




                                                                            kn
                                                              l
                      cl




                                                           nc
                                         tc
                     ry




                                                                           't
                                                          U
                                       ha




                                                                         on
                   Ve




                                     ew




                                                                        D
                                    m
                                  So




Figure 3. Are these restrictions clear enough to guide you? (Q.2)

More than 50 percent of respondents from all pay groups found the regulations merely
“somewhat clear.” Only 28 percent of Pay Group III respondents found the regulations
very clear. We compared Question 2 responses to those concerning personal
understanding of the 10 restrictions shown in Figure 4 as discussed below.

Awareness and Understanding of Regulations
Of the 10 expected program outcomes listed in Appendix C, 3 concern employee
awareness and understanding of key post-Government employment restrictions. Survey
Questions 3 through 6 (see Appendix B) include subordinate questions that covered 10
specific restrictions─representational contacts (5 questions), procurement (3 questions)
and job seeking (2 questions). The survey asked whether respondents generally
understood the restrictions and whether they believed that other DoD personnel to whom
the restrictions applied were generally aware of, and understood, the restrictions.

Figure 4 shows average percentages of positive responses to the 10 subordinate questions
under Questions 3 through 6. The response rates for all pay groups were comparable and
show that, although respondents were confident about their own knowledge and
understanding of the restrictions, they had less confidence that other DoD personnel were
aware of or understood the restrictions.
                                                         Department of Defense Office of Inspector General
                                                                                   Report No. IE-2007-003
                                                   8
             Averages of Affirmative Responses (Agree) by Pay Groups

     100%

     90%

     80%                                                      84%
                                 80%
               75%
     70%

     60%
                                                                    60%
                                                                                    I understand
                                       55%                                54%
     50%             52%                                                            Others are aware
                           49%                   50%
                                                                                    Others understand
     40%

     30%

     20%

     10%

      0%
              Pay Group I        Pay Group II                Pay Group III

Figure 4: Responses to 10 questions concerning awareness and understanding of
restrictions

Each of the 10 questions represented a restriction. Respondents could provide one of
four possible answers: “Agree,” “Neither Agree nor Disagree,” “Disagree,” or “Don’t
Know.” Respondents affirmed (Agree) the highest level of understanding on the two
questions on job seeking, Question 4(a) “If a Government employee is negotiating
employment with a company, he may not work on an official matter that will affect that
company,” and Question 4(b), “A Government official may not use official time for job-
hunting for a job outside of the Government.” The two questions had affirmative
response rates of 90 percent or higher for all Pay Group respondents. The respondents
understood they should not negotiate employment with a company while working on an
official matter affecting that company, or use official time for job hunting. The 10
restrictions could probably be ranked from most to least damaging if violated. A risk
assessment might show, for example, that looking for an outside job on Government time
may not be as serious a violation as negotiating employment with a company while
working on official matters with that company.

Figure 5 below shows that respondents were somewhat less familiar with the three
questions on procurement restrictions─Questions 5, 6(a), and 6(b). Question 5, “There is
a one-year ban against former Government employees who were involved in large
procurements or administration of large contracts accepting compensation from the prime
contractor,” appeared to be the best understood question by respondents from all three
pay groups. Question 6(b), “DoD personnel must promptly report, in writing, to their
supervisors and ethics officials, any employment contact with a bidder or offeror in a
DoD procurement valued at more than $100,000, even when they promptly reject the
employment contact,” appeared somewhat less understood.




                                                       Department of Defense Office of Inspector General
                                                                                 Report No. IE-2007-003
                                             9
                                Affirmative Responses by Pay Groups
    100%


     90%                  88%   87%
                                                          84%    83%
                   81%                                                           80%     81%
                                                   79%                                         78%
     80%


     70%


     60%

                                                                                                               Group I
     50%                                                                                                       Group II
                                                                                                               Group III
     40%


     30%


     20%


     10%


      0%
                   I understand Q.5                I understand Q.6(a)           I understand Q.6(b)

Figure 5. “Agree” responses to Questions 5, 6(a), and 6(b) on procurement
restrictions
________________________________________________________________________
                      Affirmative Responses by Pay Groups
   100%
                                                                     93%
   90%
                                             85%
                                       82%                     81%                     81%
   80%                           77%
                         75%
                                                         72%                                                 73%
   70%             67%                                                           67%
                                                                           64%
             62%                                                                                       62%
   60%                                                                                          58%

                                                                                                                       Group I
   50%                                                                                                                 Group II
                                                                                                                       Group III
   40%


   30%


   20%


   10%


    0%
           I understand Q.3(a) I understand Q.3(b) I understand Q.3(c) I understand Q.3(d) I understand Q.3(e)


Figure 6. “Agree” responses to Questions 3(a-e) on restrictions concerning
representational contacts
                                                               Department of Defense Office of Inspector General
                                                                                         Report No. IE-2007-003
                                                         10
Figure 6 shows the affirmative response rates to five questions concerning representation.
The answers to Questions 3 (a through e) differentiated more than the answers to the job
hunting and procurement restrictions.

As indicated in responses to Question 3(c), the best understood rule on representation
appeared to be the 1-year ban against former senior officials contacting employees of
their former agency with the intent of influencing them. The least understood restriction
concerned the 1-year ban against representing a foreign government before Congress, as
reflected in response to Question 3(e). Only 73 percent of Pay Group III respondents
reported they understood that rule.

We compared the high affirmative response rates on personal understanding in Figure 6
to the lower affirmative response rates shown in Figure 3 on whether restrictions are
sufficiently clear to guide employees. This suggests that either the respondents
overestimated their own understanding of the restrictions or merely recognized that the
restrictions are complex and difficult to apply. In either case, additional training
occurring before employees leave Federal service may be beneficial.

Compliance with Regulations
“Compliance with regulations” (Outcome 4) is one of 10 expected outcomes summarized
in Appendix C, “Summary Table of Expected Outcomes.” Respondents were less likely
to believe that former DoD personnel complied with post-Government employment
restrictions than to believe employees were aware of and understood the restrictions.

Figure 7 shows the average positive response rates to 10 questions on whether
respondents believed former DoD personnel complied with the restrictions.

              Averages of Affirmative Responses (Agree) by Pay Groups



       100%

        90%

        80%

        70%

        60%                                                                Pay Group I
                                                                           Pay Group II
        50%                                                                Pay Group III
                                                 45%
        40%

        30%                           32%
                          26%
        20%

        10%

         0%

Figure 7. Responses to 10 questions concerning whether former DoD personnel
generally complied with restrictions.


                                             Department of Defense Office of Inspector General
                                                                       Report No. IE-2007-003
                                        11
Many of the respondents replied that they “Did Not Know,” “Neither Agreed Nor
Disagreed,” or “Disagreed” with a question on compliance. As discussed in Appendix A,
“Scope and Methodology,” noncommittal responses to many of the questions is one of
the inherent limitations of the survey.

Ethical Decision Making
Whether employees actually believe ethics is used in making workplace decisions is a
significant indicator of ethics and compliance program effectiveness according to ERC
research. Outcomes 5 and 6 in the summary table, Appendix C, relate to Questions 38
and 39 that address the use of ethics in decision making by co-workers and supervisors,
respectively.

Figure 8 below shows the percentages of affirmative responses to Questions 38 and 39.
Respondents from all three pay groups believed their immediate supervisors were
somewhat more ethical in their decision making than their co-workers.

            Affirmative Responses (Strongly Agree/Agree) by Pay Groups



     100%                                                          88%

                                                           86%
      90%                                  80%


      80%                70%       72%

                 64%
      70%

      60%

                                                                              Co-workers are ethical
      50%
                                                                              Supervisors are ethical
      40%

      30%

      20%

      10%

       0%
               Pay Group I       Pay Group II           Pay Group III

Figure 8. My coworkers/peers (Q. 38) and my supervisor (Q.39) carefully consider
ethics when making work-related decisions.

Willingness to Seek Advice
Employee willingness to seek advice was one of the expected program outcomes that
ERC identified. Figure 9 below shows that respondents were quite willing to seek
advice, though many had not yet done so.

The survey also asked who the respondent would contact if needing advice. Question
21 (a through j) identified 10 alternative providers of ethics information, including
coworker, immediate supervisor, component head, and ethics official.
                                                 Department of Defense Office of Inspector General
                                                                           Report No. IE-2007-003
                                         12
                       Affirmative Responses (Strongly agree/Agree) by Pay Groups


       100%

          90%                                                          97%
                                                      93%
                                         87%
          80%

          70%

          60%
                                                                                                                                                                            Pay Group I
          50%                                                                                                                                                               Pay Group II
                                                                                                                                    51%                                     Pay Group III
          40%

          30%
                                                                                                                   31%
          20%
                                                                                                    17%
          10%

                 0%
                                       Should seek advice                                            Do seek advice


Figure 9. DoD personnel should seek advice (Q.22)/do seek advice (Q.23) about
post-Government employment restrictions from ethics counselor.


___________________________________________________________________

                         Affirmative responses (Very likely/Likely) by Pay Groups
                 100
                                                                                                                                          94
                                                                                                                                                                       91
                 90
                                                                                                                                                                  82
                                                   80                                                                                79
                 80                                          78
                                                                                                                                                        73

                 70

                                                                  59
                 60        57                                                                      57 58                       58
                                  54
                                                                             51 52
       Percent




                                                                                                                                                                                  Pay Group I
                 50                    47                                                                                                                                         Pay Group II
                                                                                                                                                                                  Pay Group III

                 40                                                                  37                       37


                 30


                 20


                 10


                  0
                                 er                         or                  ad                        s                         el                           ial
                              rk                       is                                              ce                         ns                        ffic
                            wo                      rv                        He                     ur                         ou
                          -                       pe                       pt                     so                           C                       sO
                        Co                     Su                        De                    Re                           al                   hic
                                                                                          an                             er                    Et
                                                                                         m                             en
                                                                                                                   G
                                                                                      Hu


Figure10. Would you contact this person for advice? (Q.21 [a-e, i])

                                                                                           Department of Defense Office of Inspector General
                                                                                                                     Report No. IE-2007-003
                                                                                     13
Figure 10 above shows the percentages of affirmative responses (Very Likely/Likely) to
Questions 21 (a through e, i). We did not include four alternatives that respondents were
least likely to seek advice from: a bargaining unit representative, unit manager, senior
local manager, or senior manager outside the respondent’s unit.

Pay Group I and II respondent willingness to turn to their immediate supervisors for
advice on ethical questions may be related to the high positive response rates concerning
ethical actions of supervisors shown in Figure 10 above. If supervisors are the first
individuals employees turn to for ethics advice, supervisors might benefit from special
training. Supervisors need to be able to recognize when to direct employees to the ethics
officer or general counsel’s office. We discussed supervisory training needs with the
Director of SOCO, who stated he planned to address the area when planning future ethics
training.

Willingness to Report Concerns
Another measure of program effectiveness is whether members of an organization are
willing to report concerns. Outcomes 8 and 9 in the Appendix B summary table are
related, respectively, to Question 24, “[D]o you know personally someone you believe
has violated the restriction on post-Government employment,” and Question 25, “Did
you report the behavior you observed that seemed to violate these restrictions?”

As shown in Figure 7, relatively few respondents believed that former DoD personnel
generally complied with restrictions. Responses to 10 questions on compliance were
only between 26 and 45 percent positive. Figure 11 shows that approximately 20 percent
of 621 respondents to Question 24 also knew someone who they believed had violated
the restrictions. However, few of those respondents actually reported the apparent
violation, as shown in Figure 12.

                     Affirmative Responses (Yes) by Pay Groups



        100%

         90%

         80%

         70%
                                                                              Pay Group I
         60%
                                                                              Pay Group II
                                                                              Pay Group III
         50%

         40%

         30%

         20%
                            18%        22%          20%
         10%

          0%


Figure 11. Do you know personally someone you believe has violated post-
Government employment restrictions? (Q.24)
                                             Department of Defense Office of Inspector General
                                                                       Report No. IE-2007-003
                                        14
According to ERC, an effective ethics and compliance program would probably not use a
20-percent observed misconduct as an indicator of success. Presumably, the
organizational goal is to have no violations of law or standards.

The survey did not ask what kind of misconduct respondents had observed. Knowing
which of the restrictions are most likely to be violated could be useful for individuals
who design ethics training. The Defense Hotline office receives allegations concerning
misconduct and could potentially provide descriptive information concerning cases that
could be used as illustrations in ethics training.

                         Positive Responses (Yes) by Pay Groups



      100%

       90%

       80%

       70%

                                                                                       Pay G roup I
       60%
                                                                                       Pay G roup II
                                                                                       Pay G roup III
       50%

       40%
                                                         40%
       30%

       20%
                              19%          23%
       10%

        0%



Figure 12. Did you report observed apparent violation? (Q.25)

Survey Question 26 addressed reasons for not reporting a violation. Figure 13 below
shows most common responses to the following options under Questions 26(a through k):

       •     26(a) – I did not believe it was my responsibility.

       •     26(b) – I was not sure it was a problem.

       •     26(d) – I did not believe corrective action would be taken.

       •     26(e) – I did not know whom to contact.

       •     26(f) – I feared retaliation by management.

       •     26(h) – I did not believe I could report anonymously.

       •     26(i) – I thought someone else would report it.

       •     26(k) – None of the above.

Responses that totaled less than 10 percent were excluded from the graphic presentation.
                                                 Department of Defense Office of Inspector General
                                                                           Report No. IE-2007-003
                                          15
Pay Group I respondents reported uncertainty whether a problem existed and high
concern with anonymity and fear of retaliation. They also did not believe management
would take corrective action. Although respondents of Pay Group II had similar
concerns, they expressed even greater uncertainty than Pay Group I whether a problem
existed. Twenty-five percent of Pay Group III respondents also reported uncertainty that
a problem existed. However, Pay Group III most frequent response to Question 26(k)
was “None of the Above.”

Uncertainty about whether a problem existed could relate to responses shown in Figure 3
concerning whether respondents considered restrictions to be clear. However, more
information concerning any perceived violations would be necessary to determine which
instructions need to be clarified or emphasized in training.

                                              Positive Responses (Yes) by Pay Groups

     100%


      90%


      80%


      70%

                                                                                                                                                                                                    60%
      60%
                                                             53%
                                                                                                                                                                                                          Pay Group I
      50%                                                                                                                                                                                                 Pay Group II
                                             44%
                                                                                                                                                                                                          Pay Group III
                                                                                                               38%                    39%
      40%                                                                37%
                                  36%

                                                                                                                                                  28%
      30%
                                                   25%
                 19%                                                                                                                                                                           18%
                                                                          20%                                              21%                      20%
      20%              18%
                                                                                                                                                                                    16%
                                                                                    13%
                                                                                                                                                          10%
      10%                                                                                        7%
                                                                                                                                                                          6%

                             0%                                                                       0%                     0%                                                0%
       0%

                       a)                    b)                     d)                     (e
                                                                                             )
                                                                                                                 6(
                                                                                                                      f)                     h)                 6(
                                                                                                                                                                     i)                        k)
                  6(                    6(                     6(                      6                       .2                       6(                    .2                          6(
                .2                    .2                     .2                     .2                     Q                          .2                  Q                             .2
            Q                     Q                      Q                      Q                                                 Q                                                 Q


Figure 13. Reasons for not reporting a perceived violation (Q.26 [a through k])

Satisfaction with Management’s Response to Reported Concerns
Actions taken on reported matters in the past could have significant impact on whether to
report a concern in the future. The 159 respondents to Question 28, “What helped you
decide to report the behavior you observed?” also responded to Questions 30 and 31.
Figure 14 shows responses (Yes/No/Don’t Know) to Question 30 concerning actions
taken on persons who had violated a restriction on post-Government employment. Figure
15 shows responses to Question 31 regarding satisfaction with DoD response to reported
behavior.

                                                                                                      Department of Defense Office of Inspector General
                                                                                                                                Report No. IE-2007-003
                                                                                       16
                               Responses by Pay Groups

     100%


      90%


      80%


      70%

                                                                             55%
      60%
                                                                      59%
                                                                                           Group I
      50%                    50%                                                           Group II
                                                                                           Group III
      40%                                           30%
                                         38%
      30%                                                                           33%

                       15%
      20%
                                                          17%
                 3%
      10%


      0%
                      Yes                      No                      Don't know


Figure 14. Was the person who violated the restrictions investigated or subject to
adverse action? (Q.30)
________________________________________________________________________

      Percent respondents by Pay Groups who were Very Satisfied/Satisfied



       100%

        90%

        80%

        70%
                                                                                          P ay G roup I
        60%
                                                                                          P ay G roup II
        50%                                                                               P ay G roup III
                                                                50%
        40%

        30%

        20%
                                           19%
                                   14%
        10%

            0%




Figure 15. How satisfied were you with DoD response to your report? (Q.31)



                                                     Department of Defense Office of Inspector General
                                                                               Report No. IE-2007-003
                                           17
More than 50 percent of Pay Groups I and II respondents answered they did not know
whether the person who violated the restrictions had been subject to adverse action. We
were not able to determine as part of this survey, the reason why the referring individual
had no knowledge of actions taken on the referral. However, management may have
been unable to provide information that was protected under the Privacy Act. Pay Group
III respondents were most likely to know the actions DoD took and to be satisfied with
DoD response to reported allegations. Pay Group III affirmative response rates were 50
percent to both questions. Therefore, senior officials might obtain information not shared
with other employees.

Summary
The ERC Report recommends that DoD design and implement an ethics program in
accordance with benchmarks for effective programs as identified in the FSGO issued by
the U.S. Sentencing Commission. The Commission is an independent agency in the
judicial branch of Government that serves as an information resource for Congress, the
executive branch, the courts, and the public.

We concluded that the survey respondents recognized the complexity of the restrictions
and may have overstated their personal understanding of them. In either case, focused
training occurring before employees leave Federal service may be warranted. An
evaluation of the DoD ethics program could validate the ERC findings concerning
program outcomes, formal program elements, and organizational culture and identify root
causes. We will consider the ERC Report recommendations should we schedule a future
evaluation of the DoD ethics program.

The survey results and recommendations in this report support the secondary objectives
concerning the need to educate employees about key aspects of the program training and
to communicate the importance of ethics in the Government. To facilitate education and
communication, we will post this report and the attached survey tables on our Web site
under ethics survey.

Expected Program Outcomes. Survey responses provided self-reported impressions
concerning expected program outcomes. Respondents believed they well understood the
post-Government employment restrictions. However, they also generally believed the
restrictions were only “somewhat clear.” Therefore, additional training and guidance
may improve understanding. Responses concerning observed, but not reported,
violations of the restrictions could also mean that a respondent was uncertain whether a
violation had actually occurred. For those who reported a perceived violation,
dissatisfaction with management action, or lack of action, their perceptions could be
improved with better management feedback mechanisms. Of the 159 who reported a
violation, 49 respondents were dissatisfied with DoD responses to reported violations and
65 respondents were noncommittal. Only 47 answered Questions 32(a through f) on why
they were dissatisfied. Accordingly, the most common response by all Pay Groups was
that management did not respond, Question 32(a). Pay Groups I and II also implied in
Question 32(b) that such issues were covered up.

Formal Program Elements. The ERC Report concluded that formal program elements,
especially setting standards and training on post-Government employment restrictions,
appeared to be well received and relatively effective for the DoD personnel it reaches.
Question 28 asked respondents, “What helped you decide to report the behavior you
observed?” Of those respondents, 60 percent or more identified ethics training as the
deciding factor. Yet, although approximately 95 percent of respondents had worked in
                                             Department of Defense Office of Inspector General
                                                                       Report No. IE-2007-003
                                        18
   the Federal Government for more than 5 years, many had not received training on post-
   Government employment restrictions. For example, only 73 percent of Pay Group III
   respondents and 69 percent of Pay Group II respondents answered that they had
   participated in such training (Question 8). The lack of training for so many long-tenured
   employees in the acquisition workforce and senior officials is an indicator that all
   program elements may not be in place.

   The training should build confidence in employees that they can report their concerns
   discretely and that management will respond appropriately.

   Organizational Culture. The ERC Report commented on the importance of
   organizational culture to support an effective ethics program. They developed a cultural
   index based on responses to five questions (Questions 20, and 34 through 37) related to
   the accountability of personnel for promoting compliance with the regulations. We refer
   to Part II of the report for details of responses to those questions.

   The ERC compared favorable responses to the five questions on accountability to
   responses to questions on training to determine whether response rates differed.
   Accordingly, respondents with a strong culture index reported equal or more often
   greater outcomes than those with a weak ranking. However, those with a strong culture
   ranking did not automatically know how to behave. They responded “Do Not Know” at
   levels nearly the same as those who did not have a strong culture. Those who
   participated in training responded “Do Not Know” at levels lower than those with a
   strong culture rank. The implication is that a strong ethical culture is a good but
   intangible thing. A strong culture requires the support of formal program elements, such
   as training, that inform individuals how to behave.

   Attending training, finding training useful, and having a strong culture are all factors that
   influence a positive outcome. However, none of those three variables influences
   awareness and understanding to a greater degree than any of the other factors. Generally
   though, a strong culture influences outcomes more positively than the training useful
   factor, which influences outcomes more positively than the attended training factor.


Recommendations
   We recommend that the Director, Standards of Conduct Office, DoD:

      1. Periodically assess senior officials and acquisition workforce on their awareness
   and knowledge of key restrictions with the post-Government Employment Survey
   questionnaire;

      2. Assess the inherent risk of each of the key restrictions identified in the survey
   questionnaire. Emphasize training on restrictions that involve the greatest risk if an
   employee violates that restriction.

       3. Develop and provide additional training for supervisors to assist them in handling
   their roles as mentors to DoD members.




                                                 Department of Defense Office of Inspector General
                                                                           Report No. IE-2007-003
                                            19
Management Comments
    On behalf of the General Counsel, DoD, the Director for the Standards of Conduct Office
    concurred with the above recommendations. The full text of the response is included in
    the Management Comments section of this report.

    The Director also recommended that the DoD Inspector General, to the maximum extent
    possible, notify employees who have reported concerns that their reports have been acted
    upon and periodically provide information on the results of actions taken. We solicited
    comments from the DoD Hotline office on the feasibility of providing status information
    on reports of alleged violations. Management responded that they support the
    development of a management information system for the Hotline. However, fiscal
    restraints have precluded the development of such a system to date.




                                                Department of Defense Office of Inspector General
                                                                          Report No. IE-2007-003
                                           20
Appendix A. Scope and Methodology
   Survey Administration. DoD IG announced the survey (Appendix D), provided lists of
   participant names to ERC, and coordinated with ERC on sample sizes. The ERC sent out
   the invitation (Appendix E) to those selected to participate, administered the survey
   online, and retained the information on respondents. Respondents were assured that their
   individual responses to all survey questions would be held in confidence, that all
   identifiers would be removed from the data, and that only aggregate survey results would
   be reported to DoD IG.

   The survey contained 48 questions, of which 6 were demographic (Appendix B). The
   ERC posted the survey online between November 21, 2005, and December 16, 2005, and
   sent invitations to the DoD personnel selected to participate in the survey.

   Use of Computer-Processed Data. We relied on data that the Defense Management
   Data Center provided to identify personnel in the acquisition workforce and all senior
   officials. Although we did not perform a formal reliability assessment of the computer-
   processed data, we determined that the personnel rosters accurately identified people in
   those two groups. We did not find errors that would preclude the use of Defense
   Management Data Center to meet the evaluation objective or to change report
   conclusions.

   Universe and Samples. The Defense Manpower Data Center provided information on
   the targeted population─the acquisition workforce employees at and above the GS-12
   level and all DoD senior officials. The results were organized into three Pay Groups of
   military and civilian DoD personnel. Table 1 below shows the size of the population in
   each stratum, sample sizes, respondents by pay grades, and the response rates.

   Sampling Methodology. The ERC developed two stratified random samples from the
   acquisition workforce data. All DoD senior officials were sampled. We have not
   projected the random sample results over the populations of senior officials and the
   acquisition workforce. The discussion of survey results addresses only the 3,134
   respondents to the survey. Sampling results were organized into three Pay Groups
   composed of military and civilian DoD personnel, as follows:

   Table A─1. Sample Size and Response Rates.

      Pay Group        Population      Sample Size      Respondents       Response rate
                                          (n)               (r)               (r/n)
     Pay Group I             61,116             3,497            1,273          36%
     Pay Group II            21,094             3,497            1,074          31%
     Pay Group III            2,050             2,050              739          36%
     Other                                                          48
     Totals                  84,260             9,044            3,134          35%

   To protect the identities of respondents, the ERC retained information on service
   affiliation. However, of the 82,210 members (61,116 plus 21,094) of the acquisition

                                                Department of Defense Office of Inspector General
                                                                          Report No. IE-2007-003
                                           21
workforce population, 76,311 (92.8 percent,) were civilians. The remaining personnel,
5,899 (7.2 percent), were military.

Pay Group “Other” resulted from responses to Question 45, “What is your pay grade?”
The identities of respondents were protected. Therefore, we have insufficient
information to correct any error in self-identification. In part, the responses could be the
result of an error in Question 45 discussed under “Limitations of the Report.” For
simplicity, we omitted discussion of responses from the category “other” from the figures
in this report. Part II of the ERC Report contains tables of all responses to all individual
questions, including those from “other” respondents.

Demographic Questions. The DoD survey asked six demographic questions
concerning:

       •   tenure at DoD

       •   financial disclosure responsibilities

       •   pay grade

       •   service affiliation

       •   whether the respondent supervised or managed other people

       •   work location relative to the Washington, D.C., metropolitan area

The values on the pie chart represent the actual number of responders as percentages of
total number of respondents, 3,134. Of the 3,134 respondents, 91 percent answered they
had worked for the Federal Government 11 or more years. None had worked less than 1
year.

       Years of Government Service as Percent of All Respondents




                                      0%        6%                            Less than 1 year
                                                       4%
                                                                             1 to 5 years
                                                                    20%
                                                                             6 to 10 years

                                                                             11 to 20 years

                                                                             More than 20 years

              71%




Figure 16. How long have you worked for the Federal Government? (Q. 43)

Financial Reporting. For Pay Group III respondents, 88 percent of Senior Executives
and Flag Officers filed a Public Financial Disclosure Report (SF 278) and 12 percent
filed a Confidential Disclosure Report (OGE Form 450, 450A, or an agency-specific
                                                 Department of Defense Office of Inspector General
                                                                           Report No. IE-2007-003
                                           22
     alternative). Eighty percent of Group II respondents, and 52 percent of Group I
     respondents filed a Confidential Report.

     Supervisory/Non-supervisory status. Of the 3,127 respondents who answered Question
     48, 1,581, approximately 50 percent, stated that they held a supervisory position.

                                Number of Supervisory Respondents by Pay Groups


                         1200



                                         1082
                         1000




                         800
           Respondents




                                                                      708
                                                  673                                                    Yes
                         600
                                                                                                         No




                         400
                                                          396



                         200
                                 190
                                                                                    30           38
                                                                                         10


                           0
                                Pay Group I     Pay Group II        Pay Group III        Other

     Figure 17. Do you hold a supervisory position? (Q.48)

Limitations of the Report
     Self-reporting Method. The major limitation of the survey method is that it relies on a
     self-report method of data collection. Intentional deception, poor memory, or
     misunderstanding a question can contribute to inaccuracies in data. The method is
     descriptive, not explanatory, and cannot offer insights into cause-and-effect relationships.
     The ERC applied their corporate experience and research expertise to interpret the data
     and offer conclusions.

     Respondents may also have given socially desirable answers or failed to share
     negative/critical information about themselves or their organization. While all surveys
     are subject to these limitations, ERC took precautions to reduce them. The solicitation
     messages and the survey instructions also clarified that ERC would keep all employee
     responses in strict confidence.

     Error in Survey Questionnaire. Question 45, “What is your pay grade?” included an
     overlap. Military Pay Group O-5 was identified for both Pay Grades I and II. See
     Appendix B, Survey Questionnaire. The intended response to Question 48(a) should
     have read “Military Pay Group O-3 to O-4.” Some individuals, not seeing their Grade O-
     3, may have identified themselves as “other.” However, the significance of this is limited
     as only 48 individuals were identified in that category. Another possibility is that some
                                                                Department of Defense Office of Inspector General
                                                                                          Report No. IE-2007-003
                                                           23
    Grade O-5 individuals were classified as Pay Group I individuals when the intent was to
    classify them as Pay Group II. The database does not contain information to determine
    how many individuals, if any, were misclassified. In either case, the risk appears limited
    because of the comparatively small participation, 7.2 percent, of military in the
    acquisition workforce.

    Some Respondents Did Not Answer All Questions. ERC excluded 215 submitted
    surveys because only two questions were answered. The 215 surveys are excluded from
    the analysis of 3,134 respondents. Another 117 respondents did not complete the entire
    survey. The number of people who responded to each question is identified in Part II of
    the report, “Survey Response Tables.”

    Respondents were allowed to refuse to answer demographic questions. Therefore, the
    total number of respondents displayed in a table by demographic, such as tenure, may not
    add up to the total number of respondents answering a given question.

    Insufficient Data to Address Service Affiliation. The ERC report did not address
    demography of service affiliation. As a matter of policy, ERC does not run cross-
    tabulations where fewer than 20 respondents could compose the subpopulation. Under
    some circumstances, a Service with fewer respondents, such as the U.S. Marine Corps,
    could be a subpopulation smaller than 20.

    Rounding Convention. A percentage total of a response may exceed or be less than 100
    percent. The ERC followed a convention of rounding up any number .5 or above and
    rounding down any number .4 or below. For example, responses of .5 percent “yes” and
    99.5 percent “no” could add up to 101 percent.

    Target Population. The attached “Survey Response Tables” include Target
    Population percentages that are not used in this report. Those percentages aggregate the
    results of the responses from the three individual pay groups plus the "Other" category
    with only 48 respondents. We did not combine the responses because the population in
    each pay group represents a different level of management experience. Therefore, we do
    not recommend using Target Population percentages for management decisions.

Prior Coverage
    GAO Report No. GAO-05-341, “Defense Ethics Program: Opportunities Exist to
    Strengthen Safeguards for Procurement Integrity,” April 2005




                                                 Department of Defense Office of Inspector General
                                                                           Report No. IE-2007-003
                                            24
Appendix B. Survey Questionnaire

WELCOME TO THE DEPARTMENT OF DEFENSE (DoD) POST-GOVERNMENT
EMPLOYMENT SURVEY!

CAN YOU AFFORD 25 MINUTES TODAY IF IT MAY SAVE YOU HOURS IN THE FUTURE (AND MAY
EVEN HELP YOU WHEN YOU DECIDE TO LEAVE DoD?)

This survey will help us to gauge the attitudes and understanding by DoD personnel
about the restrictions that may apply to them after they leave Federal service. The
Department hopes to use this information to improve the knowledge and education of
DoD personnel, so that they do not knowingly or unknowingly violate the law.

This survey is administered by the Ethics Resource Center (ERC), an independent,
non-profit organization. We have been active in the field of organizational ethics since
1978, and it has helped many organizations, including major defense contractors,
evaluate their ethics and compliance programs.

The ERC will treat all survey responses as confidential. Each individual survey response
will be combined with other responses, so that no response can be traced to individual
DoD personnel.

The user name and pass code used to take this survey will be permanently deleted
before the data are analyzed by the ERC. We will then analyze the data and report our
findings to the Department, after taking steps to ensure that no response can be traced
to any individual. No person outside of the ERC, including DoD personnel, will have
access to your individual responses.

We at the ERC appreciate your willingness to participate in this survey. To continue,
please click next to read the instructions.

               Please click NEXT to continue to INSTRUCTIONS.




Note: We retained the text format used for the questionnaire posted on the Internet.



                                                    Department of Defense Office of Inspector General
                                                                              Report No. IE-2007-003
                                               25
    INSTRUCTIONS FOR POST-GOVERNMENT EMPLOYMENT
                       SURVEY

To answer a question, click on your preferred response. A black mark
will appear next to your choice.

If at any time you need to exit the survey, you may do so by closing
your browser. To revisit the survey at a later time, go to the same
survey URL address and re-enter the username and password you
have been provided. You will arrive automatically at the question you
were last about to answer when you exited the survey.

You may notice while taking the survey that you will sometimes skip
numbered questions. This is not a problem with the survey itself.
Certain responses result in the survey automatically skipping to later
questions that logically follow your answers. We leave the questions
numbered to aid you in communicating with us should you experience
problems with a particular question as you complete the survey.

When you have completed the survey, click SUBMIT YOUR
RESPONSES.

You should be able to complete the survey within 25 minutes.

If you would like to read some of the Frequently Asked Questions
(FAQ) that survey participants typically encounter, please click on
FAQ at the bottom of the page. You can also access the FAQ while
you are answering the survey questions by clicking FAQ on the top of
the survey page.

If you are ready to take the survey, please click on NEXT at the
bottom of this page to proceed.




                                               Department of Defense Office of Inspector General
                                                                         Report No. IE-2007-003
                                          26
 Post-Government Employment Survey
Please select the best response for each question based upon your experiences,
opinions, or perceptions.

Q.1 About how often do you have to consider post-Government employment restrictions
in your work?
( ) Frequently
( ) Occasionally
( ) Rarely
( ) Never [SKIP to Q.3]
( ) I did not know there were such restrictions [SKIP to Q.3]

Q.2 Are these restrictions clear enough to guide you?
( ) Very clear
( ) Somewhat clear
( ) Not very clear
( ) Not clear at all
( ) Do not know

EXPLANATORY TEXT:

The following series of statements relate to how much you believe Department of
Defense (DoD) personnel, and former DoD personnel, know, understand, and
comply with the current restrictions on post-Government employment.

In statements that follow, ‘representational contact’ means a former Government
employee “trying to influence any Federal agency or court, by communications or
appearances on behalf of someone other than him or herself or the United States,
on a matter that has parties (Examples: contract, grant, or lawsuit).”




                                               Department of Defense Office of Inspector General
                                                                         Report No. IE-2007-003
                                          27
Q.3 In the left-hand column of the table below, there is a series of specific provisions of
the post-Government employment restrictions. For each specific provision, we will be
asking about your understanding and that of DoD personnel in general.

Please indicate in the columns opposite each provision, whether you “agree”, “neither
agree nor disagree”, or “disagree” with the following statements: (1) you generally
understand the provision, (2) DoD personnel to whom it applies are generally aware of
the provision, (3) DoD personnel to whom it applies generally understand the provision,
and (4) former DoD personnel to whom it applies generally comply with the provision.

                                     (1) I           (2) DoD           (3) DoD          (4) Former
Specific provisions of post-         generally       Personnel         Personnel        DoD
Government employment                understand      are generally     generally        Personnel
restrictions:                        the             aware of the      understand       generally
                                     provision       provision         the              comply with
                                                                       provision        the provision
(a) There is a lifetime ban          Agree       Agree                   Agree            Agree
against a former Government          Neither     Neither                 Neither          Neither
employee making                    agree nor   agree nor               agree nor        agree nor
representational contacts          disagree    disagree                disagree         disagree
[insert hyperlink] on a matter, if    Disagree    Disagree                Disagree         Disagree
he or she worked on that matter      Do not      Do not                  Do not           Do not
as a Government employee.          know        know                    know             know

(b) There is a two-year ban            Agree       Agree                 Agree            Agree
against a former Government            Neither     Neither               Neither          Neither
employee making                      agree nor   agree nor             agree nor        agree nor
representational contacts            disagree    disagree              disagree         disagree
[insert hyperlink] on a matter, if      Disagree    Disagree              Disagree         Disagree
he or she had official                 Do not          Do not            Do not           Do not
responsibility for the matter        know            know              know             know
during his or her last year of
service, even if he or she did
not personally participate in it.
(c) There is a one-year ban            Agree       Agree                 Agree            Agree
against former Government              Neither     Neither               Neither          Neither
employees who were “senior           agree nor   agree nor             agree nor        agree nor
employees” (generals,                disagree    disagree              disagree         disagree
admirals, and most SES                  Disagree    Disagree              Disagree         Disagree
members) from making                   Do not      Do not                Do not           Do not
representational contacts            know        know                  know             know
[insert hyperlink] to employees
of their former agency with the
intent to influence them in
connection with official action.

                                                     Department of Defense Office of Inspector General
                                                                               Report No. IE-2007-003
                                                28
                                  (1) I           (2) DoD           (3) DoD          (4) Former
Specific provisions of post-      generally       Personnel         Personnel        DoD
Government employment             understand      are generally     generally        Personnel
restrictions:                     the             aware of the      understand       generally
                                  provision       provision         the              comply with
                                                                    provision        the provision
(d) There is a one-year ban          Agree      Agree                 Agree            Agree
against former senior                Neither    Neither               Neither          Neither agre
Government employees               agree nor  agree nor             agree nor        nor disagree
representing, aiding, or advising disagree    disagree              disagree           Disagree
a foreign government or foreign      Disagree    Disagree              Disagree        Do not
political party, with an intent to   Do not     Do not                Do not         know
influence any officer or           know       know                  know
employee of a department or
agency.
(e) There is a one-year ban         Agree       Agree                 Agree            Agree
against former senior               Neither     Neither               Neither          Neither
Government employees              agree nor   agree nor             agree nor        agree nor
representing a foreign            disagree    disagree              disagree         disagree
government or foreign political      Disagree    Disagree              Disagree         Disagree
party before Congress.              Do not          Do not            Do not           Do not
                                  know            know              know             know


Q.4 In the left-hand column of the table below, there are two specific provisions of the
post-Government employment restrictions. For each specific provision, we will be
asking about your understanding of the provision and that of DoD personnel in general.

Please indicate in the columns opposite each provision, whether you “agree”, “neither
agree nor disagree”, or “disagree” with the following statements: (1) you generally
understand the provision, (2) DoD personnel to whom it applies are generally aware of
the provision, (3) DoD personnel to whom it applies generally understand the provision,
and (4) DoD personnel to whom it applies generally comply with the provision.




                                                  Department of Defense Office of Inspector General
                                                                            Report No. IE-2007-003
                                             29
                                        (1) I          (2) DoD         (3) DoD         (4) DoD
Specific provisions of post-            generally      Personnel       Personnel       Personnel
Government employment                   understand     are             generally       generally
restrictions:                           the            generally       understand      comply
                                        provision      aware of        the             with the
                                                       the             provision       provision
                                                       provision

(a) If a Government employee is           Agree       Agree              Agree       Agree
negotiating employment with a             Neither     Neither            Neither     Neither
company, he may not work on an          agree nor   agree nor          agree nor   agree nor
official matter that will affect that   disagree    disagree           disagree    disagree
company.                                   Disagree                       Disagree
                                          Do not    Disagree             Do not    Disagree
                                        know             Do not        know              Do not
                                                       know                            know
(b) A Government employee may           Agree       Agree                Agree       Agree
not use official time for job-hunting   Neither     Neither              Neither     Neither
for a job outside of the              agree nor   agree nor            agree nor   agree nor
Government.                           disagree    disagree             disagree    disagree
                                         Disagree                         Disagree
                                        Do not    Disagree               Do not    Disagree
                                        know             Do not        know              Do not
                                                       know                            know


In the statement that follows, when we use the term “large” in referring to a
procurement or contract, we mean a procurement or contract in excess of $10
million.

Q.5 In the left-hand column of the table below, there is a specific provision of the post-
Government employment restrictions. We will be asking about your understanding of
this provision and that of DoD personnel in general.

Please indicate in the columns opposite the provision, whether you “agree”, “neither
agree nor disagree”, or “disagree” with the following statements: (1) you generally
understand the provision, (2) DoD personnel to whom it applies are generally aware of
the provision, (3) DoD personnel to whom it applies generally understand the provision,
and (4) DoD personnel to whom it applies generally comply with the provision.




                                                    Department of Defense Office of Inspector General
                                                                              Report No. IE-2007-003
                                               30
                                    (1) I           (2) DoD         (3) DoD         (4) DoD
                                    generally       Personnel       Personnel       Personnel
Specific provisions of post-        understand      are             generally       generally
Government employment               the             generally       understand      comply
restrictions:                       provision       aware of        the             with the
                                                    the             provision       provision
                                                    provision
There is a one-year ban against       Agree       Agree               Agree       Agree
former Government employees           Neither     Neither             Neither     Neither
who were involved in large          agree nor   agree nor           agree nor   agree nor
procurements or in administration   disagree    disagree            disagree    disagree
of large contracts accepting           Disagree                        Disagree
compensation from the prime           Do not    Disagree              Do not    Disagree
contractor of that contract or      know              Do not        know              Do not
procurement.                                        know                            know


Q.6 In the left-hand column of the table below, there are two specific provisions of the
post-Government employment restrictions. For each specific provision, we will be
asking about your understanding of the provision and that of DoD personnel in general.

Please indicate in the columns opposite each provision, whether you agree, neither
agree nor disagree, or disagree with the following statements: (1) you generally
understand the provision, (2) DoD personnel to whom it applies are generally aware of
the provision, (3) DoD personnel to whom it applies generally understand the provision,
and (4) DoD personnel to whom it applies generally comply with the provision.

                                    (1) I          (2) DoD         (3) DoD          (4) DoD
Specific provisions of post-        generally      Personnel       Personnel        Personnel
Government employment               understand     are             generally        generally
restrictions:                       the            generally       understand       comply
                                    provision      aware of        the              with the
                                                   the             provision        provision
                                                   provision
(a) DoD personnel may not             Agree       Agree              Agree       Agree
participate personally and            Neither     Neither            Neither     Neither
substantially in a DoD              agree nor   agree nor          agree nor   agree nor
procurement valued at more than     disagree    disagree           disagree    disagree
$100,000 when seeking                  Disagree                       Disagree
employment with a bidder or           Do not    Disagree             Do not    Disagree
offeror.                            know             Do not        know               Do not
                                                   know                             know
(b) DoD personnel must promptly       Agree          Agree           Agree            Agree
report, in writing, to their          Neither        Neither         Neither          Neither
supervisors and ethics officials,   agree nor      agree nor       agree nor        agree nor
any employment contact with a       disagree       disagree        disagree         disagree

                                                 Department of Defense Office of Inspector General
                                                                           Report No. IE-2007-003
                                           31
                                       (1) I           (2) DoD         (3) DoD          (4) DoD
Specific provisions of post-           generally       Personnel       Personnel        Personnel
Government employment                  understand      are             generally        generally
restrictions:                          the             generally       understand       comply
                                       provision       aware of        the              with the
                                                       the             provision        provision
                                                       provision
bidder or offeror in a DoD                Disagree       Disagree         Disagree        Disagree
procurement valued at more than          Do not          Do not          Do not           Do not
$100,000, even when they               know            know            know             know
promptly reject the employment
contact.

Q.7 For each of the following, would you describe the post-Government employment
restrictions as:

                                                         Yes              No          Do not know

(a) Relevant to my position                               ()               ()                ()

(b) Easy to understand                                    ()               ()                ()

(c) Concise; to the point                                 ()               ()                ()

(d) Giving good examples                                  ()               ()                ()

(e) Providing valuable guidance                           ()               ()                ()
(e) Effective means of ensuring the integrity             ()               ()                ()
of Government decision-making

(f) Insufficient to ensure the integrity of               ()               ()                ()
Government decision-making

(g) Overly restrictive means of ensuring the              ()               ()                ()
integrity of Government decision-making




                                                     Department of Defense Office of Inspector General
                                                                               Report No. IE-2007-003
                                              32
EXPLANATORY TEXT:

Please answer the following several questions about how the post-Government
employment restrictions are communicated to DoD personnel:

Q.8 Have you participated in training about post-Government employment restrictions?
( ) Yes
( ) No [SKIP to Q.19]
( ) Do not know [SKIP to Q.19]

Q.9 How useful have you found the training on post-Government employment
restrictions to be in guiding your decisions and conduct at work? Would you say the
training was very useful, somewhat useful, or not very useful?
( ) Very useful
( ) Somewhat useful
( ) Not very useful
( ) Have not yet been through the training
( ) Do not know

Q.10 About how often does your organization offer training on post-Government
employment restrictions?
( ) Twice a year
( ) Once a year
( ) Once every two years
( ) Once every three years
( ) Less frequently than every three years
( ) Do not know

Q.11 How long was the training program on post-Government employment restrictions
that you most recently participated in?
( ) Two hours or more
( ) More than one but less than two hours.
( ) More than thirty minutes but less than one hour.
( ) Less than 30 minutes
( ) Do not know

Q.12 Was the training program led by an instructor or was it self-directed?
( ) Instructor-led
( ) Self-directed [SKIP to Q.15]
( ) Do not know [SKIP to Q.16]

Q.13 Was the instructor(s) someone who worked in your agency, or was the
instructor(s) brought in from outside of your agency?
( ) From inside of my agency
( ) From outside of my agency [SKIP to Q.16]
( ) Do not know [SKIP to Q.16]

                                                Department of Defense Office of Inspector General
                                                                          Report No. IE-2007-003
                                           33
Q.14 Was the main instructor a Human Resources officer, an individual who specializes
in ethics or compliance issues, your direct supervisor, a higher-level supervisor, or
someone else?
( ) Human Resources officer
( ) An individual who specializes in ethics or compliance issues
( ) My direct supervisor
( ) Higher-level supervisor
( ) Someone else
( ) Do not know
[Skip to Q.16 regardless of answer given above]

Q.15 Was the self-directed training on-line or did you use written program materials?
( ) On-line
( ) Written materials
( ) Other

Q.16 Did the training involve role-playing, in which you acted out/or addressed various
workplace scenarios?
( ) Yes
( ) No
( ) Do not know

Q. 17 Did the training involve case studies, for example, discussions/or exchanges
regarding real-world situations?
( ) Yes
( ) No
( ) Do not know

Q.18 Have you been able to apply what you learned during the training to your work?
( ) Yes
( ) No
( ) Not applicable

EXPLANATORY TEXT:

Please read the following statements. For each one, please indicate whether you
“strongly agree”, “agree”, “neither agree nor disagree”, “disagree”, or “strongly
disagree” with the statement.

Q.19 The personnel I work with in DoD are familiar with the laws and regulations for
Federal employees regarding post-government employment restrictions.
( ) Strongly Agree
( ) Agree
( ) Neither Agree nor Disagree
( ) Disagree

                                                Department of Defense Office of Inspector General
                                                                          Report No. IE-2007-003
                                           34
( ) Strongly Disagree

Q.20 DoD personnel who violate the laws and regulations regarding post-Government
employment restrictions will be investigated or subjected to adverse action.
( ) Strongly Agree
( ) Agree
( ) Neither Agree nor Disagree
( ) Disagree
( ) Strongly Disagree

Q.21 If you had a question about how to apply the laws and regulations regarding post-
Government employment restrictions in a particular situation, how likely would you be to
contact each of the following? Please indicate whether you would be “very likely”,
“likely”, “neither likely nor unlikely”, “unlikely”, or “very unlikely” to do so.

                                      Very        Likely Neither     Unlikely Very
                                      likely              Likely              unlikely
                                                          nor
                                                          Unlikely
(a) A co-worker/peer at my level of     ()         ()        ()          ()         ()
responsibility

(b) My direct supervisor                ()         ()        ()          ()         ()

(c) The head of my department           ()         ()        ()          ()         ()

(d) Human Resource Office               ()         ()        ()          ()         ()

(e) General Counsel’s office            ()         ()        ()          ()         ()

(f) Bargaining unit representative      ()         ()        ()          ()         ()

(g) Manager in my unit                  ()         ()        ()          ()         ()

(h) A senior manager at my location     ()         ()        ()          ()         ()

(i) Ethics officer                      ()         ()        ()          ()         ()

(j) A senior manager outside of my      ()         ()        ()          ()         ()
unit




                                                  Department of Defense Office of Inspector General
                                                                            Report No. IE-2007-003
                                             35
EXPLANATORY TEXT:

Please read the following statements. For each one, please indicate whether you
strongly agree, agree, neither agree nor disagree, disagree, or strongly disagree
with the statement.

Q.22 DoD personnel should seek advice about post-Government employment
restrictions from an ethics counselor before leaving Government service.
( ) Strongly agree
( ) Agree
( ) Neither agree nor disagree
( ) Disagree
( ) Strongly disagree
( ) Do not know

Q.23 Most DoD personnel do seek advice about post-Government employment
restrictions from an ethics counselor before leaving Government service.
( ) Strongly agree
( ) Agree
( ) Neither agree nor disagree
( ) Disagree
( ) Strongly disagree
( ) Do not know

Q.24 During the past five years, do you know personally someone you believe has
violated the restrictions on post-Government employment?
( ) Yes
( ) No [SKIP to Q.33]

Q.25 Did you report the behavior you observed that seemed to violate these restrictions
to management or another appropriate person? [If you personally observed more than
one instance of inappropriate behavior, please answer based on the most recent
instance you observed, where you felt you could not resolve the matter yourself.]
( ) Yes [Skip to Q.28]
( ) No
( ) Decline to answer [Skip to Q.34]

Q.26 Please indicate if any of the following influenced your decision not to report
misconduct. [Check all that apply]
( ) I did not believe it was my responsibility
( ) I was not sure it was a problem
( ) I did not want to look foolish
( ) I did not believe corrective action would be taken
( ) I did not know whom to contact
( ) I feared retaliation by management
( ) I feared the disapproval of my peers

                                                 Department of Defense Office of Inspector General
                                                                           Report No. IE-2007-003
                                            36
( ) I did not believe I could report anonymously
( ) I thought someone else would report it
( ) I thought the misconduct or rule violation was acceptable under the circumstances.
( ) None of the above

Q.27 How do you feel about your decision not to report the behavior you observed?
[Check all that apply]
( ) I feel that I made the right decision under the circumstances
( ) Knowing what I know now, I would report my concerns
( ) I feel bad about not reporting
( ) I feel good about not reporting
( ) I am sure someone else reported it
( ) This is just not something I am concerned about
( ) They do not pay me enough to take a personal risk
( ) None of the above
[Skip to Q.34 regardless of the answer given above]

Q.28 What helped you decide to report the behavior you observed? [Check all that
apply]
( ) Information in the annual certification I sign stating that I’m aware of and have not
violated these restrictions.
( ) Ethics training I received
( ) Assurance that my report would be kept confidential or anonymous
( ) Supportive, open work environment at my location
( ) I believed it was my duty to make the report.
( ) My personal beliefs
( ) Other

Q.29 How did you report the behavior you observed? [Check all that apply]
( ) Communicated my concern to local management.
( ) Filed a report with my agency’s ethics officer
( ) Communicated my concern to someone else in DoD.
( ) Communicated my concern to someone outside of DoD.

Q.30 Was the person who violated the restrictions on post-Government employment
investigated or subjected to adverse action?
( ) Yes
( ) No
( ) Do not know

Q.31 Overall, how satisfied were you with DoD’s response to your report of the
behavior?
( ) Very satisfied [Skip to Q.34]
( ) Satisfied [Skip to Q.34]
( ) Neither satisfied nor dissatisfied [Skip to Q.34]
( ) Dissatisfied

                                                  Department of Defense Office of Inspector General
                                                                            Report No. IE-2007-003
                                             37
( ) Very dissatisfied

Q.32 Please tell us why you were dissatisfied. [Check all that apply]
( ) Management did not respond
( ) The issue I raised was hidden, or covered up, and no corrective action was taken
( ) Management told me what they did in response, but I did not believe them
( ) Corrective action was not severe or complete enough
( ) I experienced retaliation by my superiors or coworkers as a result of my report of
misconduct
( ) Other reason(s) not included in this list [SKIP to Q.34]

Q.33 If you had observed any behavior violating post-Government employment
restrictions in the last year, would you have reported it?
( ) Yes
( ) Probably
( ) Probably not
( ) No
( ) Do not know

EXPLANATORY TEXT:

Next, please answer several questions about ethical conduct in your organization
or command:

Q.34 DoD personnel take personal responsibility for knowing, understanding, and
complying with the post-Government employment restrictions.
( ) Strongly Agree
( ) Agree
( ) Neither Agree nor Disagree
( ) Disagree
( ) Strongly Disagree

Q.35 Senior personnel in DoD are held accountable if they are caught violating the post-
Government employment restrictions.
( ) Strongly Agree
( ) Agree
( ) Neither Agree nor Disagree
( ) Disagree
( ) Strongly Disagree

Q.36 Junior personnel in DoD are held accountable if they are caught violating the post-
Government employment restrictions.
( ) Strongly Agree
( ) Agree
( ) Neither Agree nor Disagree
( ) Disagree

                                                 Department of Defense Office of Inspector General
                                                                           Report No. IE-2007-003
                                            38
( ) Strongly Disagree

Q.37 The only people who are ever held accountable if they are caught violating the
post-Government employment restrictions are those in the acquisition workforce (i.e.,
procurement or contract administration).
( ) Strongly Agree
( ) Agree
( ) Neither Agree nor Disagree
( ) Disagree
( ) Strongly Disagree

EXPLANATORY TEXT:

Next, please answer several questions about ethical conduct in your workplace:

Q.38 My coworkers/peers carefully consider ethical issues when making work-related
decisions.
( ) Strongly Agree
( ) Agree
( ) Neither Agree nor Disagree
( ) Disagree
( ) Strongly Disagree

Q.39 My supervisor carefully considers ethical issues when making work-related
decisions.
( ) Strongly Agree
( ) Agree
( ) Neither Agree nor Disagree
( ) Disagree
( ) Strongly Disagree

Q.40 At my workplace, personnel are disciplined when they violate DoD’s standards of
ethical conduct in general.
( ) Strongly Agree
( ) Agree
( ) Neither Agree nor Disagree
( ) Disagree
( ) Strongly Disagree

Q.41 My supervisor rewards personnel who get good results, even if they violate DoD’s
standards of ethical conduct.
( ) Strongly Agree
( ) Agree
( ) Neither Agree nor Disagree
( ) Disagree
( ) Strongly Disagree

                                                Department of Defense Office of Inspector General
                                                                          Report No. IE-2007-003
                                           39
 Q.42 My coworkers/peers show respect for personnel who get good results, even if
they violate DoD’s standards of ethical conduct.
( ) Strongly Agree
( ) Agree
( ) Neither Agree nor Disagree
( ) Disagree
( ) Strongly Disagree

EXPLANATORY TEXT:

To conclude, please answer a few final questions:

Q.43 How long have you worked for the Federal Government?
(a) Less than one year
(b) One year to five years
(c) Six years to 10 years
(d) Eleven years to 20 years
(e) More than 20 years

Q.44 What are your financial disclosure responsibilities?
(a) I file a Public Financial Disclosure Report (SF 278)
(b) I file a Confidential Financial Disclosure Report (OGE Form 450, 450A, or an
agency-specific alternative
(c) I am not required to file a financial disclosure report
(d) I do not know my filing status

Q.45 What is your pay grade?
(a) General Schedule or similar, grade 12-13; Military Grade Group O-4 to O-5 [Skip to
Q.47]
(b) General Schedule or similar, grade 14-15 Military Grade Group O-5 to O-6 [Skip to
Q.47]
(c) SES, SL, or equivalent; Military Grade Group O-7 to O-10
(d) Other [Skip to Q.47]

Q.46 What is your service affiliation?
(a) Civilian
(b) Air Force
(c) Army
(d) Marine Corps
(e) Navy

Q.47 What is your work location?
(a) Washington, D.C. Metro Area (includes DC, MD, VA, and WV)
(b) Other U. S. Location


                                                Department of Defense Office of Inspector General
                                                                          Report No. IE-2007-003
                                           40
Q.48 Do you hold a supervisory position?
(a) Yes
(b) No

                                   [End of Survey]




                                                Department of Defense Office of Inspector General
                                                                          Report No. IE-2007-003
                                           41
Appendix C. Expected Program Outcomes
   The following table presents the favorable responses to 10 principal expected program outcomes.
   The responses shown in the first four rows of the table are average positive response rates to 10
   questions with respect to awareness, understanding, and compliance of 10 restrictions on
   representational contacts, post-government employment, and procurement. The numbers are
   percentages of affirmative answers to the total number of responses to a question or set of related
   questions.


   Table C-1: Affirmative Response Rates Related to Expected Program Outcomes

     Expected Program Outcomes                    Pay Group I        Pay Group II       Pay Group III

     1. Average of understanding of 10                   75                80                  84
     restrictions (respondents)
     2. Average of awareness of 10                       52                55                  60
     restrictions (DoD population)
     3. Average of understanding of 10                   49                50                  54
     restrictions (DoD population)
     4. Average of compliance with 10                    26                32                  45
     restrictions (DoD population)
     5. Coworkers use ethics in decision                 64                72                  86
     making (Strongly Agree/Agree) Q. 38
     6. Supervisors use ethics in decision               70                80                  88
     making (Strongly Agree/Agree) Q. 39
     7. Seek advice before leaving service              87/17            93/31               97/51
     (Strongly Agree/Agree)
     Should seek Q 22/ Do seek Q 23
     8. Belief someone violated restrictions             18                22                  20
     (Yes) Q 24
     9. Did you report the observed                      19                23                  40
     misconduct? (Yes) Q 25
     10. Satisfied with management response              14                19                  50
     (Very Satisfied/Satisfied) Q 31


   Outcome number one is the average of respondents’ belief about their own understanding of key
   restrictions. Outcome numbers 2, 3, and 4 are averages of respondents’ perceptions about other
   employees’ awareness, understanding, and compliance. Responses shown in rows 5 through 10
   are the affirmative/positive response rates to the numbered questions indicated.




                                                         Department of Defense Office of Inspector General
                                                                                   Report No. IE-2007-003
                                                   42
Appendix D. Announcement of Survey




                            Department of Defense Office of Inspector General
                                                      Report No. IE-2007-003
                       43
     Department of Defense Office of Inspector General
                               Report No. IE-2007-003
44
Appendix E. Email Invitation to Survey Participants
    The ERC sent the following e-mail to DoD members invited to participate in the survey:

    Subject line: Your Participation Requested: The Department of Defense Post-
    Government Employment Survey

    Dear DoD Member:

    On behalf of Mr. Thomas F. Gimble, Acting Inspector General, Department of Defense
    (DoD), we would like to invite you to participate in a Survey of the Awareness and
    Attitude of DoD Senior Officials and Acquisition Workforce Regarding Post--
    Government Employment Restrictions. The survey is designed to gather feedback from
    the Department’s senior military and civilian officials and a stratified sample of
    acquisition workforce personnel on how they become aware of post-Government service
    restrictions, how they view their accountability for complying with the restrictions, and
    where they go for advice. The goals in administering the survey are to improve the DoD
    ethics and compliance programs and to promote professional conduct throughout the
    Department. To read Mr. Gimble’s announcement of the survey, which you should have
    received separately, visit http://www.dodig.mil. The survey is available now and will
    conclude on Friday, December 16, 2005.

    The Office of Inspector General has contracted with the Ethics Resource Center (ERC),
    an independent, nonprofit organization located in Washington, D.C., to obtain unbiased
    and accurate responses from survey respondents. ERC has assigned you a unique
    identifier. These randomly assigned Survey IDs [identifications] will not be provided to
    the Office of Inspector General or to anyone within the Department. ERC will remove
    all unique identifiers from the raw survey data and then combine individual survey
    responses with all other responses so that no response can be traced to any individual.
    Once survey responses are received and combined into one database, all individual
    identifiers will be destroyed. No person at the Department will have access to individual
    responses, and ERC will provide only aggregate information in its findings, conclusions
    and recommendations.

    SURVEY INSTRUCTIONS
    1. To access the survey site, please click on the survey URL below or, if it does not
    appear as a hyperlink, type the URL address into your Internet browser. When you reach
    the survey site, simply paste or enter your USERNAME and PASSWORD in the
    appropriate boxes to gain access.

    URL: https://survey.ethics.org/dodig

    User name: <USERNAME GOES HERE>

    Password: <PASSWORD GOES HERE>

    2. The survey takes approximately 25 minutes to complete and full instructions are
    available on the survey site. If at any time you need to exit the survey, close your
    browser. When you are prepared to resume taking the survey, simply go to the same URL
    and re-
                                                 Department of Defense Office of Inspector General
                                                                           Report No. IE-2007-003
                                            45
enter your username and password. You will automatically arrive at the question you last
answered before exiting the survey.

3. For more information about confidentiality or anonymity as well as any technical
issues, please view the Frequently Asked Questions page, located in the web survey, and
the troubleshooting guide at https://survey.ethics.org/dodig/troubleshooting.html.

Thank you in advance for participating and sharing your thoughts on this important topic.

Sincerely,

The Ethics Resource Center
1747 Pennsylvania Ave., NW, Suite 400
Washington, DC 20006




                                            Department of Defense Office of Inspector General
                                                                      Report No. IE-2007-003
                                       46
Appendix F. List of Acronyms

Acronyms

ERC        Ethics Resource Center
FSGO       Federal Sentencing Guidelines for Organizations
GC         General Counsel
I&E        Inspections and Evaluations
NBES       National Business Ethics Survey
P&O        Policy and Oversight
SOCO       Standards of Conduct Office, GC DoD




                                        Department of Defense Office of Inspector General
                                                                  Report No. IE-2007-003
                                   47
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Personnel and Readiness)
General Counsel of the Department of Defense
       Director, Standards of Conduct Office *
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Secretary of the Army
Chief of Staff, U.S. Army
Inspector General, Department of the Army

Department of the Navy
Secretary of the Navy
Chief of Naval Operations
Naval Inspector General
       Deputy Naval Inspector General for Marine Corps Matters

Department of the Air Force
Secretary of the Air Force
Chief of Staff, U.S. Air Force
Inspector General, Department of the Air Force

Combatant Command
Inspector General, Joint Staff

Non-Defense federal Organization
Office of Management and Budget

Congressional Committees
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
Senate Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Defense, Committee on Appropriations



* Recipient of draft report


                                                      Department of Defense Office of Inspector General
                                                                                Report No. IE-2007-003
                                                 48
Management Comments




                           Department of Defense Office of Inspector General
                                                     Report No. IE-2007-003
                      49
     Department of Defense Office of Inspector General
                               Report No. IE-2007-003
50
THE MISSION OF THE OIG DoD_______________________________________________

The office of the Inspector General of the Department of Defense was established by Congress
as one of the “independent and objective units [within listed ‘establishments,’ including the
Department of defense] to conduct and supervise audits and investigations relating to programs
and operations of those establishments.” As the principal advisor to the Secretary of Defense in
all Inspector General matters, the Inspector General serves as an extension of “the eyes, ears, and
conscience” of the Secretary. In support of the mission of the Department of Defense, the Office
of the Inspector General endeavors to:

   •   “Provide leadership . . to promote economy, efficiency and effectiveness;”

   •   Prevent and detect “fraud, waste, and abuse;”

   •   “Provide policy direction for audits and investigations;”

   •   “Provide a means for keeping the Secretary of Defense and the Congress fully and
       currently informed about problems and deficiencies;” and

   •   “Give particular regard to the activities of the internal audit, inspection, and investigative
       units of the military departments with a view toward avoiding duplication and insuring
       effective coordination and cooperation.”


TEAM MEMBERS_____________________________________________________________

The Inspections and Evaluations Directorate, Office of the Deputy Inspector General for
Inspections and Policy, Office of the Inspector General for the Department of Defense prepared
this report. Ms. Madelaine E. Fusfield, Senior Program Analyst, prepared this report from the
Ethics Resource Center Report on “DoD Acquisition Workforce and Senior Officials post-
Government Employment Survey Report: Findings, Discussion, and Recommendations,”
June 30, 2006. Commander V. W. Freeman, USN, assisted in the report preparation.



ADDITIONAL REPORT COPIES________________________________________________

Contact us by phone, fax, or e-mail:
 Inspections and Evaluations Directorate, Deputy Inspector General for Inspections and Policy
 Commercial: 703.604.9130 (DSN 664.9130)
 FAX: 703.604.9769
 E-MAIL: crystalfocus@dodig.osd.mil
 Electronic version available at: http://www.dodig.mil/Inspections/IE/Reports.htm


                                                      Department of Defense Office of Inspector General
                                                                                Report No. IE-2007-003
                                                 51
This Page Intentionally Blank




              Department of Defense Office of Inspector General
                                        Report No. IE-2007-003
             52
Department of Defense
Acquisition Workforce and Senior
Officials post-Government
Employment Survey Report

Survey Response Tables

July 25, 2006
                                                                                                      Ethics Resource Center
                                     DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                       Survey Response Tables




                          Department of Defense
         Acquisition Workforce and Senior Officials post-Government
                        Employment Survey Report

                                    Survey Response Tables
                                                                                        NOTICE

                                               This report contains source data information furnished to the U.S. Government under
                                               contract between the Department of Defense Inspector General (DoDIG) and the Ethics
                                               Resource Center (ERC), and is the property of the Government. The Government retains
                                               full right to use of this information.
Ethics Resource Center
1747 Pennsylvania Avenue NW                    Copyrighted questions and intellectual property from the ERC’s bank of diagnostic survey
Suite 400                                      questions and National Business Ethics Survey® (NBES) are also included in this report.
Washington, DC 20006                           This confidential and proprietary information may not be replicated, duplicated or reused in
(202) 737-2258                                 any form except where use is permitted by the Government as specified in the contract, and
(202) 737-2227 (fax)                           except where explicit written permission is given by the Ethics Resource Center.
ethics@ethics.org
www.ethics.org                                 Requests should be directed to: Permissions, Ethics Resource Center


Certain Materials, © 2006 Ethics Resource Center
This information is confidential and proprietary and is not to be shared with others without express permission of the Department of
Defense Inspector General (DoDIG) and, where applicable, the Ethics Resource Center (ERC).
                                                                                   Ethics Resource Center
                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                    Survey Response Tables




                   Purpose of this Document
The purpose of this document is to array in one document all
responses to the questions contained in the Department of Defense
Acquisition Workforce and Senior Officials post-Government
Employment Survey conducted between November and December
2005.

This report is intended to serve as a working document: to provide
no more analysis than arranging the data for quick reference to
specific questions and responses by the Target population and four
pay groups.




                                         i
                                                                                                    Ethics Resource Center
                                   DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                     Survey Response Tables




                                           How to use these tables
1. The Target population is a combined, weighted sample population comprised of survey respondents in
   four Pay Groups – One, Two, Three, and Other. It is developed by combining pay groups’ responses into
   one number through weighting factors. The weighting factors scale the pay groups’ sample ‘n’ Sizes up or
   down such that pay group responses are represented in the Target population proportional to each group’s
   percentage representation in the DoD Acquisition Workforce and Senior official (DoD-A&S) Population.

2. The percentage total of a response could exceed or be less than 100% because ERC follows a convention
   of rounding up any number .5 or above and rounding down any number .4 or below. For example,
   responses of .5% yes and 99.5% no would add up to 101%.

3. For a detailed account of the methodology employed in this survey, please see the Survey Report:
   Findings, Discussion and Recommendations.


NOTE: The number of people who responded to each question is included in the column “n Size.” A number of respondents
(215) completed only the first two questions of the Survey. These were deleted from the analysis. Another number of
respondents (117) did not complete the entire Survey, and we applied a weighting variable in order to use their responses in
calculations.




                                                             ii
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.1 About how often do you have to consider post-Government employment restrictions in your work?



 Pay Groups                   n Size   Frequently   Occasionally    Rarely   Never   I did not know there      How to use this table
                                                                                     were such restrictions
 Target Population            3134        5%           23%           45%     24%              3%              1. The numbers on the first
 (1) General Schedule or      1273        4%           19%           46%     27%              4%              column (n Size) represent
 similar, grade 12-13;                                                                                        the actual number of
 Military Grade Group O-3                                                                                     responses per question.
 to O-4                                                                                                       2. The Target population
                                                                                                              percentages are weighted
 (2) General Schedule or      1074        8%           31%           45%     16%              1%              to reflect pay groups’
 similar, grade 14-15;                                                                                        proportional representation
 Military Grade Group O-5                                                                                     in the DoD-A&S
 to O-6                                                                                                       Population.
 (3) SES, SL, or              739        14%           32%           42%     12%              0%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48         8%           21%           44%     17%             10%




 Certain Materials, © 2006 Ethics Resource Center

                                                                   -1-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.2 Are these restrictions clear enough to guide you?



 Pay Groups                   n Size     Very clear   Somewhat         Not very   Not clear at   I do not    How to use this table
                                                        clear           clear         all         know
 Target Population            2448         21%          56%             14%           3%           7%       1. The numbers on the first
 (1) General Schedule or       879         20%          55%             14%           3%           8%       column (n Size) represent
 similar, grade 12-13;                                                                                      the actual number of
 Military Grade Group O-3                                                                                   responses per question.
 to O-4                                                                                                     2. The Target population
                                                                                                            percentages are weighted
 (2) General Schedule or      889          21%          55%             16%           3%           5%       to reflect pay groups’
 similar, grade 14-15;                                                                                      proportional representation
 Military Grade Group O-5                                                                                   in the DoD-A&S
 to O-6                                                                                                     Population.
 (3) SES, SL, or              645          28%          58%              9%           3%           2%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     35          29%          49%             11%           3%           9%




 Certain Materials, © 2006 Ethics Resource Center

                                                                 -2-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.3.a(1) There is a lifetime ban against a former Government employee making representational contacts on
a matter, if he or she worked on that matter as a Government employee.
  I generally understand the provision.



 Pay Groups                          n Size         Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                   3134           64%           12%         18%           6%        1. The numbers on the first
 (1) General Schedule or             1273           62%           12%         18%           7%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or             1074           67%           12%         17%           4%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;         739            75%           9%          13%           3%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                            48            58%           17%         13%          13%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -3-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.3.b(1) There is a two-year ban against a former Government employee making representational contacts
on a matter, if he or she had official responsibility for the matter during his or her last year of service, even if
he or she did not personally participate in it.
  I generally understand the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            78%           10%         7%            5%        1. The numbers on the first
 (1) General Schedule or            1273            77%           10%         7%            6%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            82%           9%          6%            3%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             85%           7%          7%            1%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             75%           13%         6%            6%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -4-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.3.c(1) There is a one-year ban against former Government employees who were “senior employees”
(generals, admirals, and most SES members) from making representational contacts to employees of their
former agency with the intent to influence them in connection with official action.
  I generally understand the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            75%           10%         6%           10%        1. The numbers on the first
 (1) General Schedule or            1273            72%           11%         6%           11%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            81%           8%          5%            7%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             93%           3%          3%            1%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             69%           15%        10%            6%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -5-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.3.d(1) There is a one-year ban against former senior Government employees representing, aiding, or
advising a foreign government or foreign political party, with an intent to influence any officer or employee of
a department or agency.
  I generally understand the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            65%           12%         8%           14%        1. The numbers on the first
 (1) General Schedule or            1273            64%           12%         8%           15%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            67%           12%         9%           12%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             81%           7%          7%            5%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             58%           17%         8%           17%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -6-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.3.e(1) There is a one-year ban against former senior Government employees representing a foreign
government or foreign political party before Congress.
  I generally understand the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            60%           13%         9%           19%        1. The numbers on the first
 (1) General Schedule or            1273            58%           13%         9%           20%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            62%           12%        10%           16%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             73%           11%         7%            9%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             65%           10%         6%           19%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -7-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.3.a(2) There is a lifetime ban against a former Government employee making representational contacts on
a matter, if he or she worked on that matter as a Government employee.
  DoD Personnel are generally aware of the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            46%           19%        18%           17%        1. The numbers on the first
 (1) General Schedule or            1273            46%           18%        17%           19%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            46%           21%        21%           12%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             49%           24%        16%           12%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             35%           23%        21%           21%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -8-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.3.b(2) There is a two-year ban against a former Government employee making representational contacts
on a matter, if he or she had official responsibility for the matter during his or her last year of service, even if
he or she did not personally participate in it.
  DoD Personnel are generally aware of the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            54%           20%        10%           16%        1. The numbers on the first
 (1) General Schedule or            1273            52%           19%        10%           18%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            58%           21%        10%           10%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             58%           22%         9%           11%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             42%           27%        10%           21%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -9-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.3.c(2) There is a one-year ban against former Government employees who were “senior employees”
(generals, admirals, and most SES members) from making representational contacts to employees of their
former agency with the intent to influence them in connection with official action.
  DoD Personnel are generally aware of the provision.




 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            52%            18%        9%           21%        1. The numbers on the first
 (1) General Schedule or            1273            49%            18%        9%           23%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            56%            19%       10%           15%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             75%            12%        5%            8%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             38%            23%       13%           27%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -10-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.3.d(2) There is a one-year ban against former senior Government employees representing, aiding, or
advising a foreign government or foreign political party, with an intent to influence any officer or employee of
a department or agency.
  DoD Personnel are generally aware of the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            38%            23%       13%           27%        1. The numbers on the first
 (1) General Schedule or            1273            38%            22%       11%           28%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            38%            23%       16%           23%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             51%            21%       12%           16%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             23%            31%       13%           33%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -11-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.3.e(2) There is a one-year ban against former senior Government employees representing a foreign
government or foreign political party before Congress.
  DoD Personnel are generally aware of the provision.



 Pay Groups                         n Size          Agree    Neither agree   Disagree    Do not know    How to use this table
                                                             nor disagree
 Target Population                  3134            34%            22%        13%           31%        1. The numbers on the first
 (1) General Schedule or            1273            34%            22%        12%           33%        column (n Size) represent
 similar, grade 12-13; Military                                                                        the actual number of
 Grade Group O-3 to O-4                                                                                responses per question.
                                                                                                       2. The Target population
 (2) General Schedule or            1074            34%            22%        17%           27%
                                                                                                       percentages are weighted
 similar, grade 14-15; Military                                                                        to reflect pay groups’
 Grade Group O-5 to O-6                                                                                proportional representation
 (3) SES, SL, or equivalent;         739            43%            23%        12%           22%        in the DoD-A&S
 Military Grade Group O-7 to                                                                           Population.
 O-10
 (4) Other                           48             27%            29%        13%           31%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -12-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.3.a(3) There is a lifetime ban against a former Government employee making representational contacts on
a matter, if he or she worked on that matter as a Government employee.
  DoD Personnel generally understand the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            37%            24%       20%           19%        1. The numbers on the first
 (1) General Schedule or            1273            39%            22%       19%           20%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            34%            27%       24%           15%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             38%            31%       18%           14%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             25%            29%       21%           25%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -13-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.3.b(3) There is a two-year ban against a former Government employee making representational contacts
on a matter, if he or she had official responsibility for the matter during his or her last year of service, even if
he or she did not personally participate in it.
  DoD Personnel generally understand the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            46%            23%       12%           19%        1. The numbers on the first
 (1) General Schedule or            1273            45%            23%       11%           21%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            48%            25%       14%           12%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             46%            27%       14%           14%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             38%            31%       13%           19%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -14-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.3.c(3) There is a one-year ban against former Government employees who were “senior employees”
(generals, admirals, and most SES members) from making representational contacts to employees of their
former agency with the intent to influence them in connection with official action.
  DoD Personnel generally understand the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            46%            21%       10%           23%        1. The numbers on the first
 (1) General Schedule or            1273            45%            21%        9%           25%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            50%            22%       11%           16%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             69%            16%        5%            9%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             33%            29%       13%           25%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -15-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.3.d(3) There is a one-year ban against former senior Government employees representing, aiding, or
advising a foreign government or foreign political party, with an intent to influence any officer or employee of
a department or agency.
  DoD Personnel generally understand the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            36%            23%       12%           29%        1. The numbers on the first
 (1) General Schedule or            1273            36%            22%       11%           31%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            35%            26%       14%           25%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             47%            24%       11%           18%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             23%            33%       10%           33%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -16-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.3.e(3) There is a one-year ban against former senior Government employees representing a foreign
government or foreign political party before Congress.
  DoD Personnel generally understand the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            33%            23%       11%           33%        1. The numbers on the first
 (1) General Schedule or            1273            34%            21%       10%           35%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            32%            27%       13%           29%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             41%            25%       11%           23%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             23%            35%        8%           33%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -17-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.3.a(4) There is a lifetime ban against a former Government employee making representational contacts on
a matter, if he or she worked on that matter as a Government employee.
  Former DoD Personnel generally comply with the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            22%            25%       22%           32%        1. The numbers on the first
 (1) General Schedule or            1273            20%            24%       21%           34%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            24%            28%       24%           24%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             36%            27%       12%           25%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             13%            27%       23%           38%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -18-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.3.b(4) There is a two-year ban against a former Government employee making representational contacts
on a matter, if he or she had official responsibility for the matter during his or her last year of service, even if
he or she did not personally participate in it.
  Former DoD Personnel generally comply with the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            25%            26%       18%           31%        1. The numbers on the first
 (1) General Schedule or            1273            23%            25%       17%           34%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            29%            29%       21%           22%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             40%            25%       11%           24%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             19%            23%       23%           35%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -19-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.3.c(4) There is a one-year ban against former Government employees who were “senior employees”
(generals, admirals, and most SES members) from making representational contacts to employees of their
former agency with the intent to influence them in connection with official action.
  Former DoD Personnel generally comply with the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            24%            22%       21%           33%        1. The numbers on the first
 (1) General Schedule or            1273            21%            22%       21%           37%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            29%            24%       22%           25%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             59%            17%        8%           16%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             15%            21%       27%           38%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -20-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.3.d(4) There is a one-year ban against former senior Government employees representing, aiding, or
advising a foreign government or foreign political party, with an intent to influence any officer or employee of
a department or agency.
  Former DoD Personnel generally comply with the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            22%            24%       10%           44%        1. The numbers on the first
 (1) General Schedule or            1273            21%            22%       11%           46%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            23%            28%       10%           39%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             41%            23%        5%           31%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             13%            25%       25%           38%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -21-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.3.e(4) There is a one-year ban against former senior Government employees representing a foreign
government or foreign political party before Congress.
  Former DoD Personnel generally comply with the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            21%            24%        8%           47%        1. The numbers on the first
 (1) General Schedule or            1273            19%            23%        8%           49%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            22%            27%        8%           43%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             39%            22%        4%           34%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             15%            25%       19%           42%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -22-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.4.a(1) If a Government employee is negotiating employment with a company, he may not work on an
official matter that will affect that company.
  I generally understand the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            92%            3%         2%            3%        1. The numbers on the first
 (1) General Schedule or            1273            90%            4%         3%            4%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            97%            2%         1%            1%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             95%            3%         1%            1%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             85%            8%         2%            4%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -23-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.4.b(1) A Government employee may not use official time for job-hunting for a job outside of the
Government.
 I generally understand the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            91%            4%         3%            2%        1. The numbers on the first
 (1) General Schedule or            1273            91%            4%         3%            2%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            93%            3%         3%            1%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             93%            4%         1%            1%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             98%            2%         0%            0%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -24-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.4.a(2) If a Government employee is negotiating employment with a company, he may not work on an
official matter that will affect that company.
  DoD Personnel are generally aware of the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            73%            11%        4%           12%        1. The numbers on the first
 (1) General Schedule or            1273            71%            12%        4%           13%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            80%            10%        2%            7%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             84%            8%         1%            7%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population..
 O-10
 (4) Other                           48             58%            17%        4%           21%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -25-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.4.b(2) A Government employee may not use official time for job-hunting for a job outside of the
Government.
 DoD Personnel are generally aware of the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            67%            14%        7%           12%        1. The numbers on the first
 (1) General Schedule or            1273            66%            13%        7%           13%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            69%            16%        8%            7%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             71%            15%        7%            8%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             60%            23%        4%           13%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -26-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.4.a(3) If a Government employee is negotiating employment with a company, he may not work on an
official matter that will affect that company.
  DoD Personnel generally understand the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            69%            13%        4%           14%        1. The numbers on the first
 (1) General Schedule or            1273            67%            13%        5%           16%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            75%            13%        3%            8%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             80%            11%        3%            7%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             50%            23%        4%           23%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -27-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.4.b(3) A Government employee may not use official time for job-hunting for a job outside of the
Government.
 DoD Personnel generally understand the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            65%            15%        6%           13%        1. The numbers on the first
 (1) General Schedule or            1273            66%            14%        6%           14%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            65%            19%        7%            9%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             68%            18%        5%            9%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             52%            27%        6%           15%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -28-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.4.a(4) If a Government employee is negotiating employment with a company, he may not work on an
official matter that will affect that company.
  DoD Personnel generally comply with the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            43%            21%       11%           26%        1. The numbers on the first
 (1) General Schedule or            1273            39%            21%       11%           29%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            51%            22%       10%           17%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             67%            16%        3%           15%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             29%            19%       17%           35%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -29-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.4.b(4) A Government employee may not use official time for job-hunting for a job outside of the
Government.
 DoD Personnel generally comply with the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            33%            21%       21%           24%        1. The numbers on the first
 (1) General Schedule or            1273            33%            20%       22%           26%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            34%            25%       22%           19%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             45%            23%       15%           17%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             31%            17%       25%           27%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -30-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.5(1) There is a one-year ban against former Government employees who were involved in large
procurements or in administration of large contracts accepting compensation from the prime contractor of
that contract or procurement.
  I generally understand the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            83%            5%         5%            7%        1. The numbers on the first
 (1) General Schedule or            1273            81%            5%         6%            8%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            88%            5%         3%            4%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             87%            5%         4%            4%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             71%            15%        2%           13%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -31-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.5(2) There is a one-year ban against former Government employees who were involved in large
procurements or in administration of large contracts accepting compensation from the prime contractor of
that contract or procurement.
  DoD Personnel are generally aware of the provision.



 Pay Groups                         n Size          Agree    Neither agree   Disagree    Do not know    How to use this table
                                                             nor disagree
 Target Population                  3134            62%            15%         6%           18%        1. The numbers on the first
 (1) General Schedule or            1273            60%            15%         6%           19%        column (n Size) represent
 similar, grade 12-13; Military                                                                        the actual number of
 Grade Group O-3 to O-4                                                                                responses per question.
                                                                                                       2. The Target population
 (2) General Schedule or            1074            67%            15%         5%           12%
                                                                                                       percentages are weighted
 similar, grade 14-15; Military                                                                        to reflect pay groups’
 Grade Group O-5 to O-6                                                                                proportional representation
 (3) SES, SL, or equivalent;         739            67%            16%         5%           12%        in the DoD-A&S
 Military Grade Group O-7 to                                                                           Population.
 O-10
 (4) Other                           48             44%            23%         6%           27%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -32-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.5(3) There is a one-year ban against former Government employees who were involved in large
procurements or in administration of large contracts accepting compensation from the prime contractor of
that contract or procurement.
  DoD Personnel generally understand the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            58%            17%        6%           20%        1. The numbers on the first
 (1) General Schedule or            1273            57%            16%        5%           21%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            62%            17%        6%           15%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             60%            20%        5%           15%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             40%            25%        8%           27%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -33-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.5(4) There is a one-year ban against former Government employees who were involved in large
procurements or in administration of large contracts accepting compensation from the prime contractor of
that contract or procurement.
  DoD Personnel generally comply with the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            35%            22%       10%           34%        1. The numbers on the first
 (1) General Schedule or            1273            32%            21%       10%           36%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            40%            24%       10%           26%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             51%            20%        5%           24%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             25%            23%       13%           40%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -34-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.6.a(1) DoD personnel may not participate personally and substantially in a DoD procurement valued at
more than $100,000 when seeking employment with a bidder or offeror.
 I generally understand the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            80%            7%         5%            8%        1. The numbers on the first
 (1) General Schedule or            1273            79%            7%         5%            9%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            84%            6%         4%            6%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             83%            5%         7%            5%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             73%            15%        4%            8%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -35-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.6.b(1) DoD personnel must promptly report, in writing, to their supervisors and ethics officials, any
employment contact with a bidder or offeror in a DoD procurement valued at more than $100,000, even when
they promptly reject the employment contact.
  I generally understand the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            80%            7%         4%            8%        1. The numbers on the first
 (1) General Schedule or            1273            80%            7%         4%            9%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            81%            8%         5%            7%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             78%            9%         7%            5%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             79%            15%        2%            4%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -36-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.6.a(2) DoD personnel may not participate personally and substantially in a DoD procurement valued at
more than $100,000 when seeking employment with a bidder or offeror.
 DoD Personnel are generally aware of the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            54%            17%        8%           21%        1. The numbers on the first
 (1) General Schedule or            1273            53%            17%        7%           23%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            59%            17%        8%           16%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             61%            18%        7%           15%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             40%            27%        8%           25%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -37-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.6.b(2) DoD personnel must promptly report, in writing, to their supervisors and ethics officials, any
employment contact with a bidder or offeror in a DoD procurement valued at more than $100,000, even when
they promptly reject the employment contact.
  DoD Personnel are generally aware of the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            47%            20%       10%           22%        1. The numbers on the first
 (1) General Schedule or            1273            47%            19%       10%           24%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            47%            22%       13%           17%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             42%            26%       12%           20%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             29%            38%       13%           21%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -38-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.6.a(3) DoD personnel may not participate personally and substantially in a DoD procurement valued at
more than $100,000 when seeking employment with a bidder or offeror.
 DoD Personnel generally understand the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            52%            19%        7%           22%        1. The numbers on the first
 (1) General Schedule or            1273            51%            19%        6%           24%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            55%            20%        7%           18%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             56%            20%        8%           16%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             33%            31%        8%           27%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -39-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.6.b(3) DoD personnel must promptly report, in writing, to their supervisors and ethics officials, any
employment contact with a bidder or offeror in a DoD procurement valued at more than $100,000, even when
they promptly reject the employment contact.
  DoD Personnel generally understand the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            45%            22%        8%           24%        1. The numbers on the first
 (1) General Schedule or            1273            46%            21%        7%           26%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            44%            26%       11%           19%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             39%            28%       12%           21%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             31%            35%       13%           21%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -40-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.6.a(4) DoD personnel may not participate personally and substantially in a DoD procurement valued at
more than $100,000 when seeking employment with a bidder or offeror.
  DoD Personnel generally comply with the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            32%            22%        9%           37%        1. The numbers on the first
 (1) General Schedule or            1273            30%            22%        9%           39%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            38%            24%        7%           30%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             47%            20%        5%           28%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             23%            23%       15%           40%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -41-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.6.b(4) DoD personnel must promptly report, in writing, to their supervisors and ethics officials, any
employment contact with a bidder or offeror in a DoD procurement valued at more than $100,000, even when
they promptly reject the employment contact.
  DoD Personnel generally comply with the provision.



 Pay Groups                         n Size          Agree   Neither agree   Disagree    Do not know    How to use this table
                                                            nor disagree
 Target Population                  3134            26%            25%       10%           40%        1. The numbers on the first
 (1) General Schedule or            1273            26%            23%        9%           42%        column (n Size) represent
 similar, grade 12-13; Military                                                                       the actual number of
 Grade Group O-3 to O-4                                                                               responses per question.
                                                                                                      2. The Target population
 (2) General Schedule or            1074            25%            29%       12%           34%
                                                                                                      percentages are weighted
 similar, grade 14-15; Military                                                                       to reflect pay groups’
 Grade Group O-5 to O-6                                                                               proportional representation
 (3) SES, SL, or equivalent;        739             29%            28%        8%           35%        in the DoD-A&S
 Military Grade Group O-7 to                                                                          Population.
 O-10
 (4) Other                           48             21%            27%       21%           31%




 Certain Materials, © 2006 Ethics Resource Center

                                                            -42-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.7 For each of the following, would you describe the post-Government employment restrictions as:
 (a) Relevant to my position



 Pay Groups                                   n Size         Yes             No         Do not know    How to use this table
 Target Population                            3134          71%             23%            6%
 (1) General Schedule or similar, grade       1273          68%             25%            7%         1. The numbers on the first
                                                                                                      column (n Size) represent
 12-13; Military Grade Group O-3 to O-4
                                                                                                      the actual number of
 (2) General Schedule or similar, grade       1074          82%             16%            3%         responses per question.
 14-15; Military Grade Group O-5 to O-6                                                               2. The Target population
 (3) SES, SL, or equivalent; Military          739          89%             9%             1%         percentages are weighted
 Grade Group O-7 to O-10                                                                              to reflect pay groups’
 (4) Other                                      48          52%             35%            13%        proportional representation
                                                                                                      in the DoD-A&S
                                                                                                      Population.




 Certain Materials, © 2006 Ethics Resource Center

                                                           -43-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.7 For each of the following, would you describe the post-Government employment restrictions as:
 (b) Easy to understand



 Pay Groups                                   n Size         Yes             No         Do not know    How to use this table
 Target Population                            3134          56%             36%            8%
 (1) General Schedule or similar, grade       1273          56%             35%            9%         1. The numbers on the first
                                                                                                      column (n Size) represent
 12-13; Military Grade Group O-3 to O-4
                                                                                                      the actual number of
 (2) General Schedule or similar, grade       1074          55%             39%            5%         responses per question.
 14-15; Military Grade Group O-5 to O-6                                                               2. The Target population
 (3) SES, SL, or equivalent; Military          739          49%             47%            4%         percentages are weighted
 Grade Group O-7 to O-10                                                                              to reflect pay groups’
 (4) Other                                      48          46%             42%            13%        proportional representation
                                                                                                      in the DoD-A&S
                                                                                                      Population.




 Certain Materials, © 2006 Ethics Resource Center

                                                           -44-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.7 For each of the following, would you describe the post-Government employment restrictions as:
 (c) Concise; to the point



 Pay Groups                                    n Size         Yes            No         Do not know    How to use this table
 Target Population                             3134          53%            36%            11%
 (1) General Schedule or similar, grade        1273          53%            34%            12%        1. The numbers on the first
                                                                                                      column (n Size) represent
 12-13; Military Grade Group O-3 to O-4
                                                                                                      the actual number of
 (2) General Schedule or similar, grade        1074          52%            40%            8%         responses per question.
 14-15; Military Grade Group O-5 to O-6                                                               2. The Target population
 (3) SES, SL, or equivalent; Military           739          45%            49%            5%         percentages are weighted
 Grade Group O-7 to O-10                                                                              to reflect pay groups’
 (4) Other                                      48           42%            42%            17%        proportional representation
                                                                                                      in the DoD-A&S
                                                                                                      Population.




 Certain Materials, © 2006 Ethics Resource Center

                                                           -45-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.7 For each of the following, would you describe the post-Government employment restrictions as:
 (d) Giving good examples



 Pay Groups                                   n Size         Yes             No         Do not know    How to use this table
 Target Population                            3134          47%             31%            22%
 (1) General Schedule or similar, grade       1273          48%             29%            23%        1. The numbers on the first
                                                                                                      column (n Size) represent
 12-13; Military Grade Group O-3 to O-4
                                                                                                      the actual number of
 (2) General Schedule or similar, grade       1074          44%             34%            22%        responses per question.
 14-15; Military Grade Group O-5 to O-6                                                               2. The Target population
 (3) SES, SL, or equivalent; Military          739          43%             38%            18%        percentages are weighted
 Grade Group O-7 to O-10                                                                              to reflect pay groups’
 (4) Other                                      48          38%             40%            23%        proportional representation
                                                                                                      in the DoD-A&S
                                                                                                      Population.




 Certain Materials, © 2006 Ethics Resource Center

                                                           -46-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.7 For each of the following, would you describe the post-Government employment restrictions as:
 (e) Providing valuable guidance



 Pay Groups                                   n Size         Yes             No         Do not know    How to use this table
 Target Population                            3134          68%             17%            15%
 (1) General Schedule or similar, grade       1273          67%             17%            16%        1. The numbers on the first
                                                                                                      column (n Size) represent
 12-13; Military Grade Group O-3 to O-4
                                                                                                      the actual number of
 (2) General Schedule or similar, grade       1074          70%             19%            10%        responses per question.
 14-15; Military Grade Group O-5 to O-6                                                               2. The Target population
 (3) SES, SL, or equivalent; Military          739          71%             20%            9%         percentages are weighted
 Grade Group O-7 to O-10                                                                              to reflect pay groups’
 (4) Other                                      48          63%             19%            19%        proportional representation
                                                                                                      in the DoD-A&S
                                                                                                      Population.




 Certain Materials, © 2006 Ethics Resource Center

                                                           -47-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.7 For each of the following, would you describe the post-Government employment restrictions as:
 (f) Effective means of ensuring the integrity of Government decision-making



 Pay Groups                                   n Size         Yes             No         Do not know    How to use this table
 Target Population                            3134          51%             27%            22%
 (1) General Schedule or similar, grade       1273          52%             25%            23%        1. The numbers on the first
                                                                                                      column (n Size) represent
 12-13; Military Grade Group O-3 to O-4
                                                                                                      the actual number of
 (2) General Schedule or similar, grade       1074          50%             31%            19%        responses per question.
 14-15; Military Grade Group O-5 to O-6                                                               2. The Target population
 (3) SES, SL, or equivalent; Military          739          56%             25%            19%        percentages are weighted
 Grade Group O-7 to O-10                                                                              to reflect pay groups’
 (4) Other                                      48          35%             33%            31%        proportional representation
                                                                                                      in the DoD-A&S
                                                                                                      Population.




 Certain Materials, © 2006 Ethics Resource Center

                                                           -48-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.7 For each of the following, would you describe the post-Government employment restrictions as:
 (g) Insufficient to ensure the integrity of Government decision-making



 Pay Groups                                   n Size         Yes             No         Do not know    How to use this table
 Target Population                            3134          31%             43%            26%
 (1) General Schedule or similar, grade       1273          29%             43%            28%        1. The numbers on the first
                                                                                                      column (n Size) represent
 12-13; Military Grade Group O-3 to O-4
                                                                                                      the actual number of
 (2) General Schedule or similar, grade       1074          36%             43%            21%        responses per question.
 14-15; Military Grade Group O-5 to O-6                                                               2. The Target population
 (3) SES, SL, or equivalent; Military          739          27%             52%            21%        percentages are weighted
 Grade Group O-7 to O-10                                                                              to reflect pay groups’
 (4) Other                                      48          38%             29%            33%        proportional representation
                                                                                                      in the DoD-A&S
                                                                                                      Population.




 Certain Materials, © 2006 Ethics Resource Center

                                                           -49-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.7 For each of the following, would you describe the post-Government employment restrictions as:
 (h) Overly restrictive means of ensuring the integrity of Government decision-making



 Pay Groups                                   n Size         Yes             No         Do not know    How to use this table
 Target Population                            3134          14%             64%            22%
 (1) General Schedule or similar, grade       1273          13%             63%            24%        1. The numbers on the first
                                                                                                      column (n Size) represent
 12-13; Military Grade Group O-3 to O-4
                                                                                                      the actual number of
 (2) General Schedule or similar, grade       1074          14%             69%            17%        responses per question.
 14-15; Military Grade Group O-5 to O-6                                                               2. The Target population
 (3) SES, SL, or equivalent; Military          739          24%             60%            16%        percentages are weighted
 Grade Group O-7 to O-10                                                                              to reflect pay groups’
 (4) Other                                      48          13%             54%            33%        proportional representation
                                                                                                      in the DoD-A&S
                                                                                                      Population.




 Certain Materials, © 2006 Ethics Resource Center

                                                           -50-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.8 Have you participated in training about post-Government employment restrictions?



 Pay Groups                                   n Size         Yes             No         Do not know    How to use this table
 Target Population                            3134          61%             34%            4%
 (1) General Schedule or similar, grade       1273          59%             36%            5%         1. The numbers on the first
                                                                                                      column (n Size) represent
 12-13; Military Grade Group O-3 to O-4
                                                                                                      the actual number of
 (2) General Schedule or similar, grade       1074          69%             29%            2%         responses per question.
 14-15; Military Grade Group O-5 to O-6                                                               2. The Target population
 (3) SES, SL, or equivalent; Military          739          73%             25%            1%         percentages are weighted
 Grade Group O-7 to O-10                                                                              to reflect pay groups’
 (4) Other                                      48          52%             42%            6%         proportional representation
                                                                                                      in the DoD-A&S
                                                                                                      Population.




 Certain Materials, © 2006 Ethics Resource Center

                                                           -51-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.9 How useful have you found the training on post-Government employment restrictions to be in guiding
your decisions and conduct at work? Would you say the training was very useful, somewhat useful, or not
very useful?



 Pay Groups                   n Size    Very useful   Somewhat       Not very   Have not yet    I do not    How to use this table
                                                        useful        useful    been through     know
                                                                                 the training
                                                                                                           1. The numbers on the first
 Target Population            2051         25%          56%           18%           0%            1%       column (n Size) represent
 (1) General Schedule or       745         24%          54%           20%           0%            1%       the actual number of
 similar, grade 12-13;                                                                                     responses per question.
 Military Grade Group O-3                                                                                  2. The Target population
 to O-4                                                                                                    percentages are weighted
                                                                                                           to reflect pay groups’
 (2) General Schedule or      738          25%          60%           14%           0%            0%
                                                                                                           proportional representation
 similar, grade 14-15;                                                                                     in the DoD-A&S
 Military Grade Group O-5                                                                                  Population.
 to O-6
 (3) SES, SL, or              543          33%          59%            7%           0%            0%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     25          24%          52%           20%           0%            4%




 Certain Materials, © 2006 Ethics Resource Center

                                                              -52-
                                                                                                        Ethics Resource Center
                                       DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                         Survey Response Tables



Q.10 About how often does your organization offer training on post-Government employment restrictions?



Pay Groups                    n Size    Twice a    Once a     Once         Once          Less       Do not
                                         year       year    every two      every      frequently    know      How to use this table
                                                              years     three years   than every
                                                                                      three years
                                                                                                             1. The numbers on the first
Target Population             2051        6%       61%         5%          1%            7%         19%      column (n Size) represent
(1) General Schedule or        745        6%       59%         5%          1%            8%         21%      the actual number of
similar, grade 12-13;                                                                                        responses per question.
Military Grade Group O-3                                                                                     2. The Target population
to O-4                                                                                                       percentages are weighted
(2) General Schedule or       738         6%       65%         6%          1%            7%         15%      to reflect pay groups’
similar, grade 14-15;                                                                                        proportional representation
                                                                                                             in the DoD-A&S
Military Grade Group O-5
                                                                                                             Population.
to O-6
(3) SES, SL, or equivalent;   543        11%       65%         4%          2%            2%         16%
Military Grade Group O-7
to O-10
(4) Other                      25         8%       56%         0%          0%            4%         32%




  Certain Materials, © 2006 Ethics Resource Center

                                                                -53-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.11 How long was the training program on post-Government employment restrictions that you most
recently participated in?



 Pay Groups                   n Size    Two hours   More than        More than       Less than   Do not know
                                         or more    one but less   thirty minutes   30 minutes                  How to use this table
                                                     than two       but less than
                                                      hours.          one hour
                                                                                                               1. The numbers on the first
 Target Population            2051        10%          32%             38%            11%           8%         column (n Size) represent
 (1) General Schedule or       745        10%          31%             37%            12%           9%         the actual number of
 similar, grade 12-13;                                                                                         responses per question.
 Military Grade Group O-3                                                                                      2. The Target population
 to O-4                                                                                                        percentages are weighted
 (2) General Schedule or      738         10%          34%             40%            11%           5%         to reflect pay groups’
 similar, grade 14-15;                                                                                         proportional representation
                                                                                                               in the DoD-A&S
 Military Grade Group O-5
                                                                                                               Population.
 to O-6
 (3) SES, SL, or              543         11%          36%             42%             7%           4%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     25         12%          36%             24%            16%           12%




 Certain Materials, © 2006 Ethics Resource Center

                                                               -54-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.12 Was the training program led by an instructor or was it self-directed?



 Pay Groups                                   n Size     Instructor-led   Self-directed   Do not know    How to use this table
 Target Population                            2051           51%             45%             4%
 (1) General Schedule or similar, grade        745           51%             44%             5%         1. The numbers on the first
                                                                                                        column (n Size) represent
 12-13; Military Grade Group O-3 to O-4
                                                                                                        the actual number of
 (2) General Schedule or similar, grade        738           51%             47%             2%         responses per question.
 14-15; Military Grade Group O-5 to O-6                                                                 2. The Target population
 (3) SES, SL, or equivalent; Military          543           47%             51%             2%         percentages are weighted
 Grade Group O-7 to O-10                                                                                to reflect pay groups’
 (4) Other                                      25           56%             44%             0%         proportional representation
                                                                                                        in the DoD-A&S
                                                                                                        Population.




 Certain Materials, © 2006 Ethics Resource Center

                                                           -55-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.13 Was the instructor(s) someone who worked in your agency, or was the instructor(s) brought in from
outside of your agency?



 Pay Groups                                   n Size     From inside of   From outside of   Do not know    How to use this table
                                                           my agency        my agency
 Target Population                            1029           71%               20%              9%        1. The numbers on the first
 (1) General Schedule or similar, grade        380           70%               20%             10%        column (n Size) represent
 12-13; Military Grade Group O-3 to O-4                                                                   the actual number of
 (2) General Schedule or similar, grade        374           73%               19%             9%         responses per question.
                                                                                                          2. The Target population
 14-15; Military Grade Group O-5 to O-6
                                                                                                          percentages are weighted
 (3) SES, SL, or equivalent; Military          261           74%               22%             4%         to reflect pay groups’
 Grade Group O-7 to O-10                                                                                  proportional representation
 (4) Other                                      14           71%               29%             0%         in the DoD-A&S
                                                                                                          Population.




 Certain Materials, © 2006 Ethics Resource Center

                                                            -56-
                                                                                                        Ethics Resource Center
                                       DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                         Survey Response Tables



Q.14 Was the main instructor a Human Resources officer, an individual who specializes in ethics or
compliance issues, your direct supervisor, a higher-level supervisor, or someone else?



 Pay Groups                   n Size      Human      An individual     My direct     Higher-     Someone   Do not    How to use this table
                                         Resources        who          supervisor      level       else    know
                                          officer    specializes in                 supervisor
                                                                                                                    1. The numbers on the first
                                                       ethics or
                                                      compliance
                                                                                                                    column (n Size) represent
                                                         issues                                                     the actual number of
                                                                                                                    responses per question.
 Target Population            745           5%           81%                 1%        1%          9%       3%
                                                                                                                    2. The Target population
 (1) General Schedule or      266           5%           79%                 1%        2%          9%       4%      percentages are weighted
 similar, grade 12-13;                                                                                              to reflect pay groups’
 Military Grade Group O-3                                                                                           proportional representation
 to O-4                                                                                                             in the DoD-A&S
 (2) General Schedule or      273           4%           86%                 0%        0%          9%       2%      Population.
 similar, grade 14-15;
 Military Grade Group O-5
 to O-6
 (3) SES, SL, or              196           0%           90%                 0%        0%          5%       5%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     10          20%           50%                 0%       10%         10%      10%




 Certain Materials, © 2006 Ethics Resource Center

                                                                      -57-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.15 Was the self-directed training on-line or did you use written program materials?



 Pay Groups                                   n Size        On-line       Written         Other        How to use this table
                                                                          materials
 Target Population                             964           95%            4%             2%        1. The numbers on the first
 (1) General Schedule or similar, grade        332           94%            4%             2%        column (n Size) represent
 12-13; Military Grade Group O-3 to O-4                                                              the actual number of
 (2) General Schedule or similar, grade        348           96%            2%             1%        responses per question.
                                                                                                     2. The Target population
 14-15; Military Grade Group O-5 to O-6
                                                                                                     percentages are weighted
 (3) SES, SL, or equivalent; Military          273           89%            7%             4%        to reflect pay groups’
 Grade Group O-7 to O-10                                                                             proportional representation
 (4) Other                                      11           91%            9%             0%        in the DoD-A&S
                                                                                                     Population.




 Certain Materials, © 2006 Ethics Resource Center

                                                           -58-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.16 Did the training involve role-playing, in which you acted out/or addressed various workplace scenarios?



 Pay Groups                                   n Size         Yes             No         Do not know    How to use this table
 Target Population                            2051          39%             55%            6%
 (1) General Schedule or similar, grade        745          38%             55%            7%         1. The numbers on the first
                                                                                                      column (n Size) represent
 12-13; Military Grade Group O-3 to O-4
                                                                                                      the actual number of
 (2) General Schedule or similar, grade        738          41%             54%            5%         responses per question.
 14-15; Military Grade Group O-5 to O-6                                                               2. The Target population
 (3) SES, SL, or equivalent; Military          543          30%             66%            4%         percentages are weighted
 Grade Group O-7 to O-10                                                                              to reflect pay groups’
 (4) Other                                      25          32%             64%            4%         proportional representation
                                                                                                      in the DoD-A&S
                                                                                                      Population.




 Certain Materials, © 2006 Ethics Resource Center

                                                           -59-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.17 Did the training involve case studies, for example, discussions/or exchanges regarding real-world
situations?



 Pay Groups                                   n Size         Yes             No         Do not know    How to use this table
 Target Population                            2051          76%             16%            8%
 (1) General Schedule or similar, grade        745          75%             16%            9%         1. The numbers on the first
                                                                                                      column (n Size) represent
 12-13; Military Grade Group O-3 to O-4
                                                                                                      the actual number of
 (2) General Schedule or similar, grade        738          78%             16%            6%         responses per question.
 14-15; Military Grade Group O-5 to O-6                                                               2. The Target population
 (3) SES, SL, or equivalent; Military          543          76%             20%            4%         percentages are weighted
 Grade Group O-7 to O-10                                                                              to reflect pay groups’
 (4) Other                                      25          76%             24%            0%         proportional representation
                                                                                                      in the DoD-A&S
                                                                                                      Population.




 Certain Materials, © 2006 Ethics Resource Center

                                                           -60-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.18 Have you been able to apply what you learned during the training to your work?



 Pay Groups                                   n Size         Yes             No        Not applicable    How to use this table
 Target Population                            2051          42%             30%            28%
 (1) General Schedule or similar, grade        745          38%             31%            31%          1. The numbers on the first
                                                                                                        column (n Size) represent
 12-13; Military Grade Group O-3 to O-4
                                                                                                        the actual number of
 (2) General Schedule or similar, grade        738          50%             29%            21%          responses per question.
 14-15; Military Grade Group O-5 to O-6                                                                 2. The Target population
 (3) SES, SL, or equivalent; Military          543          65%             18%            16%          percentages are weighted
 Grade Group O-7 to O-10                                                                                to reflect pay groups’
 (4) Other                                      25          40%             32%            28%          proportional representation
                                                                                                        in the DoD-A&S
                                                                                                        Population.




 Certain Materials, © 2006 Ethics Resource Center

                                                           -61-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.19 The personnel I work with in DoD are familiar with the laws and regulations for Federal employees
regarding post-government employment restrictions.



 Pay Groups                   n Size     Strongly     Agree      Neither Agree   Disagree   Strongly     How to use this table
                                          Agree                  nor Disagree               Disagree
 Target Population            3134         7%          48%           32%          12%         1%       1. The numbers on the first
 (1) General Schedule or      1273         7%          45%           35%          12%         1%       column (n Size) represent
 similar, grade 12-13;                                                                                 the actual number of
 Military Grade Group O-3                                                                              responses per question.
 to O-4                                                                                                2. The Target population
                                                                                                       percentages are weighted
 (2) General Schedule or      1074         7%          54%           27%          12%         1%       to reflect pay groups’
 similar, grade 14-15;                                                                                 proportional representation
 Military Grade Group O-5                                                                              in the DoD-A&S
 to O-6                                                                                                Population.
 (3) SES, SL, or              739         12%          56%           24%           8%         0%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48          6%          42%           31%          21%         0%




 Certain Materials, © 2006 Ethics Resource Center

                                                              -62-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.20 DoD personnel who violate the laws and regulations regarding post-Government employment
restrictions will be investigated or subjected to adverse action.



 Pay Groups                   n Size     Strongly     Agree      Neither Agree   Disagree   Strongly     How to use this table
                                          Agree                  nor Disagree               Disagree
 Target Population            3134        17%          41%           29%          11%         2%       1. The numbers on the first
 (1) General Schedule or      1273        18%          41%           28%          11%         2%       column (n Size) represent
 similar, grade 12-13;                                                                                 the actual number of
 Military Grade Group O-3                                                                              responses per question.
 to O-4                                                                                                2. The Target population
                                                                                                       percentages are weighted
 (2) General Schedule or      1074        16%          39%           30%          12%         2%       to reflect pay groups’
 similar, grade 14-15;                                                                                 proportional representation
 Military Grade Group O-5                                                                              in the DoD-A&S
 to O-6                                                                                                Population.
 (3) SES, SL, or              739         27%          51%           17%           5%         0%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48         15%          48%           31%           2%         4%




 Certain Materials, © 2006 Ethics Resource Center

                                                              -63-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.21 If you had a question about how to apply the laws and regulations regarding post-Government
employment restrictions in a particular situation, how likely would you be to contact each of the following?
Please indicate whether you would be “very likely”, “likely”, “neither likely nor unlikely”, “unlikely”, or
“very unlikely” to do so.
  (a) A co-worker/peer at my level of responsibility



 Pay Groups                   n Size    Very likely   Likely      Neither Likely   Unlikely    Very       How to use this table
                                                                   nor Unlikely               unlikely
 Target Population            3134        25%          30%            13%           22%        10%       1. The numbers on the first
 (1) General Schedule or      1273        26%          31%            13%           22%         9%       column (n Size) represent
 similar, grade 12-13;                                                                                   the actual number of
 Military Grade Group O-3                                                                                responses per question.
 to O-4                                                                                                  2. The Target population
                                                                                                         percentages are weighted
 (2) General Schedule or      1074        25%          29%            12%           23%        12%       to reflect pay groups’
 similar, grade 14-15;                                                                                   proportional representation
 Military Grade Group O-5                                                                                in the DoD-A&S
 to O-6                                                                                                  Population.
 (3) SES, SL, or              739         19%          28%            17%           23%        13%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48         19%          40%            19%           17%         6%




 Certain Materials, © 2006 Ethics Resource Center

                                                               -64-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.21 If you had a question about how to apply the laws and regulations regarding post-Government
employment restrictions in a particular situation, how likely would you be to contact each of the following?
Please indicate whether you would be “very likely”, “likely”, “neither likely nor unlikely”, “unlikely”, or
“very unlikely” to do so.
  (b) My direct supervisor



 Pay Groups                   n Size    Very likely   Likely      Neither Likely   Unlikely    Very       How to use this table
                                                                   nor Unlikely               unlikely
 Target Population            3134        42%          38%             7%            9%         4%       1. The numbers on the first
 (1) General Schedule or      1273        43%          37%             7%            9%         4%       column (n Size) represent
 similar, grade 12-13;                                                                                   the actual number of
 Military Grade Group O-3                                                                                responses per question.
 to O-4                                                                                                  2. The Target population
                                                                                                         percentages are weighted
 (2) General Schedule or      1074        40%          38%             7%           10%         5%       to reflect pay groups’
 similar, grade 14-15;                                                                                   proportional representation
 Military Grade Group O-5                                                                                in the DoD-A&S
 to O-6                                                                                                  Population.
 (3) SES, SL, or              739         24%          35%            15%           17%         9%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48         38%          48%             8%            4%         2%




 Certain Materials, © 2006 Ethics Resource Center

                                                               -65-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.21 If you had a question about how to apply the laws and regulations regarding post-Government
employment restrictions in a particular situation, how likely would you be to contact each of the following?
Please indicate whether you would be “very likely”, “likely”, “neither likely nor unlikely”, “unlikely”, or
“very unlikely” to do so.
  (c) The head of my department



 Pay Groups                   n Size    Very likely   Likely      Neither Likely   Unlikely    Very       How to use this table
                                                                   nor Unlikely               unlikely
 Target Population            3134        20%          31%            19%           21%         9%       1. The numbers on the first
 (1) General Schedule or      1273        20%          31%            19%           22%         9%       column (n Size) represent
 similar, grade 12-13;                                                                                   the actual number of
 Military Grade Group O-3                                                                                responses per question.
 to O-4                                                                                                  2. The Target population
                                                                                                         percentages are weighted
 (2) General Schedule or      1074        21%          31%            19%           19%         9%       to reflect pay groups’
 similar, grade 14-15;                                                                                   proportional representation
 Military Grade Group O-5                                                                                in the DoD-A&S
 to O-6                                                                                                  Population.
 (3) SES, SL, or              739         15%          24%            23%           24%        14%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48         23%          29%            27%           19%         2%




 Certain Materials, © 2006 Ethics Resource Center

                                                               -66-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.21 If you had a question about how to apply the laws and regulations regarding post-Government
employment restrictions in a particular situation, how likely would you be to contact each of the following?
Please indicate whether you would be “very likely”, “likely”, “neither likely nor unlikely”, “unlikely”, or
“very unlikely” to do so.
  (d) Human Resource Office



 Pay Groups                   n Size    Very likely   Likely      Neither Likely   Unlikely    Very       How to use this table
                                                                   nor Unlikely               unlikely
 Target Population            3134        24%          34%            16%           17%        10%       1. The numbers on the first
 (1) General Schedule or      1273        23%          34%            17%           16%         9%       column (n Size) represent
 similar, grade 12-13;                                                                                   the actual number of
 Military Grade Group O-3                                                                                responses per question.
 to O-4                                                                                                  2. The Target population
                                                                                                         percentages are weighted
 (2) General Schedule or      1074        26%          32%            13%           17%        11%       to reflect pay groups’
 similar, grade 14-15;                                                                                   proportional representation
 Military Grade Group O-5                                                                                in the DoD-A&S
 to O-6                                                                                                  Population.
 (3) SES, SL, or              739         13%          24%            21%           27%        15%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48         15%          35%            23%           19%         8%




 Certain Materials, © 2006 Ethics Resource Center

                                                               -67-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.21 If you had a question about how to apply the laws and regulations regarding post-Government
employment restrictions in a particular situation, how likely would you be to contact each of the following?
Please indicate whether you would be “very likely”, “likely”, “neither likely nor unlikely”, “unlikely”, or
“very unlikely” to do so.
  (e) General Counsel’s office



 Pay Groups                   n Size    Very likely   Likely      Neither Likely   Unlikely    Very       How to use this table
                                                                   nor Unlikely               unlikely
 Target Population            3134        40%          24%            15%           14%         7%       1. The numbers on the first
 (1) General Schedule or      1273        34%          24%            17%           16%         9%       column (n Size) represent
 similar, grade 12-13;                                                                                   the actual number of
 Military Grade Group O-3                                                                                responses per question.
 to O-4                                                                                                  2. The Target population
                                                                                                         percentages are weighted
 (2) General Schedule or      1074        55%          24%             9%            8%         3%       to reflect pay groups’
 similar, grade 14-15;                                                                                   proportional representation
 Military Grade Group O-5                                                                                in the DoD-A&S
 to O-6                                                                                                  Population.
 (3) SES, SL, or              739         80%          14%             3%            1%         1%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48         21%          23%            33%           15%         8%




 Certain Materials, © 2006 Ethics Resource Center

                                                               -68-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.21 If you had a question about how to apply the laws and regulations regarding post-Government
employment restrictions in a particular situation, how likely would you be to contact each of the following?
Please indicate whether you would be “very likely”, “likely”, “neither likely nor unlikely”, “unlikely”, or
“very unlikely” to do so.
  (f) Bargaining unit representative



 Pay Groups                   n Size    Very likely   Likely      Neither Likely   Unlikely    Very       How to use this table
                                                                   nor Unlikely               unlikely
 Target Population            3134         4%          7%             20%           28%        41%       1. The numbers on the first
 (1) General Schedule or      1273         5%          8%             22%           29%        36%       column (n Size) represent
 similar, grade 12-13;                                                                                   the actual number of
 Military Grade Group O-3                                                                                responses per question.
 to O-4                                                                                                  2. The Target population
                                                                                                         percentages are weighted
 (2) General Schedule or      1074         2%          3%             16%           26%        53%       to reflect pay groups’
 similar, grade 14-15;                                                                                   proportional representation
 Military Grade Group O-5                                                                                in the DoD-A&S
 to O-6                                                                                                  Population.
 (3) SES, SL, or              739          0%          1%             15%           23%        61%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48          2%          15%            31%           25%        27%




 Certain Materials, © 2006 Ethics Resource Center

                                                               -69-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.21 If you had a question about how to apply the laws and regulations regarding post-Government
employment restrictions in a particular situation, how likely would you be to contact each of the following?
Please indicate whether you would be “very likely”, “likely”, “neither likely nor unlikely”, “unlikely”, or
“very unlikely” to do so.
  (g) Manager in my unit



 Pay Groups                   n Size    Very likely   Likely      Neither Likely   Unlikely    Very       How to use this table
                                                                   nor Unlikely               unlikely
 Target Population            3134        15%          31%            21%           19%        15%       1. The numbers on the first
 (1) General Schedule or      1273        16%          32%            21%           18%        13%       column (n Size) represent
 similar, grade 12-13;                                                                                   the actual number of
 Military Grade Group O-3                                                                                responses per question.
 to O-4                                                                                                  2. The Target population
                                                                                                         percentages are weighted
 (2) General Schedule or      1074        11%          29%            19%           22%        19%       to reflect pay groups’
 similar, grade 14-15;                                                                                   proportional representation
 Military Grade Group O-5                                                                                in the DoD-A&S
 to O-6                                                                                                  Population.
 (3) SES, SL, or              739          7%          12%            21%           26%        34%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48         17%          38%            29%           13%         4%




 Certain Materials, © 2006 Ethics Resource Center

                                                               -70-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.21 If you had a question about how to apply the laws and regulations regarding post-Government
employment restrictions in a particular situation, how likely would you be to contact each of the following?
Please indicate whether you would be “very likely”, “likely”, “neither likely nor unlikely”, “unlikely”, or
“very unlikely” to do so.
  (h) A senior manager at my location



 Pay Groups                   n Size    Very likely   Likely      Neither Likely   Unlikely    Very       How to use this table
                                                                   nor Unlikely               unlikely
 Target Population            3134        14%          30%            21%           20%        14%       1. The numbers on the first
 (1) General Schedule or      1273        15%          30%            22%           20%        13%       column (n Size) represent
 similar, grade 12-13;                                                                                   the actual number of
 Military Grade Group O-3                                                                                responses per question.
 to O-4                                                                                                  2. The Target population
                                                                                                         percentages are weighted
 (2) General Schedule or      1074        14%          31%            20%           18%        18%       to reflect pay groups’
 similar, grade 14-15;                                                                                   proportional representation
 Military Grade Group O-5                                                                                in the DoD-A&S
 to O-6                                                                                                  Population.
 (3) SES, SL, or              739         11%          20%            17%           23%        29%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48         15%          31%            25%           23%         6%




 Certain Materials, © 2006 Ethics Resource Center

                                                               -71-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.21 If you had a question about how to apply the laws and regulations regarding post-Government
employment restrictions in a particular situation, how likely would you be to contact each of the following?
Please indicate whether you would be “very likely”, “likely”, “neither likely nor unlikely”, “unlikely”, or
“very unlikely” to do so.
  (i) Ethics officer



 Pay Groups                   n Size    Very likely    Likely      Neither Likely   Unlikely    Very       How to use this table
                                                                    nor Unlikely               unlikely
 Target Population            3134         46%         29%             12%            7%         5%       1. The numbers on the first
 (1) General Schedule or      1273         42%         31%             14%            8%         5%       column (n Size) represent
 similar, grade 12-13;                                                                                    the actual number of
 Military Grade Group O-3                                                                                 responses per question.
 to O-4                                                                                                   2. The Target population
                                                                                                          percentages are weighted
 (2) General Schedule or      1074         58%         24%              8%            6%         4%       to reflect pay groups’
 similar, grade 14-15;                                                                                    proportional representation
 Military Grade Group O-5                                                                                 in the DoD-A&S
 to O-6                                                                                                   Population.
 (3) SES, SL, or              739          74%         17%              4%            3%         3%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48          31%         38%             17%           13%         2%




 Certain Materials, © 2006 Ethics Resource Center

                                                                -72-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.21 If you had a question about how to apply the laws and regulations regarding post-Government
employment restrictions in a particular situation, how likely would you be to contact each of the following?
Please indicate whether you would be “very likely”, “likely”, “neither likely nor unlikely”, “unlikely”, or
“very unlikely” to do so.
  (j) A senior manager outside of my unit



 Pay Groups                   n Size    Very likely   Likely      Neither Likely   Unlikely    Very       How to use this table
                                                                   nor Unlikely               unlikely
 Target Population            3134         4%          9%             23%           33%        32%       1. The numbers on the first
 (1) General Schedule or      1273         4%          9%             23%           34%        30%       column (n Size) represent
 similar, grade 12-13;                                                                                   the actual number of
 Military Grade Group O-3                                                                                responses per question.
 to O-4                                                                                                  2. The Target population
                                                                                                         percentages are weighted
 (2) General Schedule or      1074         5%          8%             21%           30%        36%       to reflect pay groups’
 similar, grade 14-15;                                                                                   proportional representation
 Military Grade Group O-5                                                                                in the DoD-A&S
 to O-6                                                                                                  Population.
 (3) SES, SL, or              739          5%          9%             21%           29%        35%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48          0%          15%            33%           35%        17%




 Certain Materials, © 2006 Ethics Resource Center

                                                               -73-
                                                                                                        Ethics Resource Center
                                       DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                         Survey Response Tables



Q.22 DoD personnel should seek advice about post-Government employment restrictions from an ethics
counselor before leaving Government service.



 Pay Groups                   n Size      Strongly   Agree   Neither Agree   Disagree   Strongly   I do not    How to use this table
                                           Agree             nor Disagree               Disagree    know
 Target Population            3134         52%       37%          9%           1%         0%         1%       1. The numbers on the first
 (1) General Schedule or      1273         47%       40%         10%           1%         0%         1%       column (n Size) represent
 similar, grade 12-13;                                                                                        the actual number of
 Military Grade Group O-3                                                                                     responses per question.
 to O-4                                                                                                       2. The Target population
                                                                                                              percentages are weighted
 (2) General Schedule or      1074         65%       28%          6%           1%         0%         0%       to reflect pay groups’
 similar, grade 14-15;                                                                                        proportional representation
 Military Grade Group O-5                                                                                     in the DoD-A&S
 to O-6                                                                                                       Population.
 (3) SES, SL, or              739          81%       16%          3%           0%         0%         0%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48          31%       44%         19%           2%          2         2%




 Certain Materials, © 2006 Ethics Resource Center

                                                                -74-
                                                                                                        Ethics Resource Center
                                       DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                         Survey Response Tables



Q.23 Most DoD personnel do seek advice about post-Government employment restrictions from an ethics
counselor before leaving Government service.



 Pay Groups                   n Size     Strongly   Agree   Neither Agree   Disagree   Strongly   I do not    How to use this table
                                          Agree             nor Disagree               Disagree    know
 Target Population            3134         5%        16%        26%          18%         3%        31%       1. The numbers on the first
 (1) General Schedule or      1273         4%        13%        26%          19%         4%        33%       column (n Size) represent
 similar, grade 12-13;                                                                                       the actual number of
 Military Grade Group O-3                                                                                    responses per question.
 to O-4                                                                                                      2. The Target population
                                                                                                             percentages are weighted
 (2) General Schedule or      1074         7%        24%        26%          15%         3%        25%       to reflect pay groups’
 similar, grade 14-15;                                                                                       proportional representation
 Military Grade Group O-5                                                                                    in the DoD-A&S
 to O-6                                                                                                      Population.
 (3) SES, SL, or              739          15%       36%        20%           8%         1%        20%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48          2%        17%        27%          21%         2%        31%




 Certain Materials, © 2006 Ethics Resource Center

                                                                -75-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.24 During the past five years, do you know personally someone you believe has violated the restrictions on
post-Government employment?



 Pay Groups                           n Size             Yes                No           How to use this table
 Target Population                    3134               19%               81%
 (1) General Schedule or              1273               18%               82%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or              1074               22%               78%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;           739               20%               80%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              48               17%               83%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -76-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.25 Did you report the behavior you observed that seemed to violate these restrictions to management or
another appropriate person? [If you personally observed more than one instance of inappropriate behavior,
please answer based on the most recent instance you observed, where you felt you could not resolve the matter
yourself.]



 Pay Groups                           n Size           Yes               No         Decline to answer    How to use this table
 Target Population                    624              21%              39%               41%
 (1) General Schedule or              231              19%              39%               42%           1. The numbers on the first
                                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                                 responses per question.
 (2) General Schedule or              239              23%              40%               37%           2. The Target population
 similar, grade 14-15; Military                                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;          146              40%              27%               33%           proportional representation
 Military Grade Group O-7 to                                                                            in the DoD-A&S
 O-10                                                                                                   Population.
 (4) Other                              8              25%              13%               63%




 Certain Materials, © 2006 Ethics Resource Center

                                                             -77-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.26 Please indicate if any of the following influenced your decision not to report misconduct. [Check all that
apply]
  (a) I did not believe it was my responsibility.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     229               82%               18%
 (1) General Schedule or                91               81%               19%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                95               82%               18%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            42              100%                0%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              1               100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -78-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.26 Please indicate if any of the following influenced your decision not to report misconduct. [Check all that
apply]
  (b) I was not sure it was a problem.



 Pay Groups                            n Size             No                Yes          How to use this table
 Target Population                      229              62%               38%
 (1) General Schedule or                 91              64%               36%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                95               56%               44%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            42               75%               25%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                               1              100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -79-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.26 Please indicate if any of the following influenced your decision not to report misconduct. [Check all that
apply]
  (c) I did not want to look foolish.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     229               96%                4%
 (1) General Schedule or                91               94%                6%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                95               99%                1%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            42              100%                0%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              1               100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -80-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.26 Please indicate if any of the following influenced your decision not to report misconduct. [Check all that
apply]
  (d) I did not believe corrective action would be taken.



 Pay Groups                            n Size             No                Yes          How to use this table
 Target Population                      229              53%               47%
 (1) General Schedule or                 91              48%               53%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                95               63%               37%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            42               80%               20%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                               1              100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -81-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.26 Please indicate if any of the following influenced your decision not to report misconduct. [Check all that
apply]
  (e) I did not know whom to contact.



 Pay Groups                            n Size             No                Yes          How to use this table
 Target Population                      229              89%               11%
 (1) General Schedule or                 91              87%               13%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                95               93%                7%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            42              100%                0%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                               1              100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -82-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.26 Please indicate if any of the following influenced your decision not to report misconduct. [Check all that
apply]
  (f) I feared retaliation by management.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     229               68%               32%
 (1) General Schedule or                91               63%               38%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                95               79%               21%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            42              100%                0%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population..
 (4) Other                              1               100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -83-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.26 Please indicate if any of the following influenced your decision not to report misconduct. [Check all that
apply]
  (g) I feared the disapproval of my peers.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     229               93%                7%
 (1) General Schedule or                91               94%                6%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                95               91%                9%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            42              100%                0%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              1               100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -84-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.26 Please indicate if any of the following influenced your decision not to report misconduct. [Check all that
apply]
  (h) I did not believe I could report anonymously.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     229               64%               36%
 (1) General Schedule or                91               61%               39%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                95               72%               28%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            42               80%               20%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              1                0%                100%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -85-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.26 Please indicate if any of the following influenced your decision not to report misconduct. [Check all that
apply]
  (i) I thought someone else would report it.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     229               92%                8%
 (1) General Schedule or                91               90%               10%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                95               94%                6%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            42              100%                0%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              1               100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -86-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.26 Please indicate if any of the following influenced your decision not to report misconduct. [Check all that
apply]
  (j) I thought the misconduct or rule violation was acceptable under the circumstances.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     229               95%                5%
 (1) General Schedule or                91               96%                4%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                95               93%                7%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            42              100%                0%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              1               100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -87-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.26 Please indicate if any of the following influenced your decision not to report misconduct. [Check all that
apply]
  (k) None of the above.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     229               82%               18%
 (1) General Schedule or                91               84%               16%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                95               82%               18%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            42               40%               60%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              1               100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -88-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.27 How do you feel about your decision not to report the behavior you observed? [Check all that apply]
 (a) I feel that I made the right decision under the circumstances.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     229               57%               43%
 (1) General Schedule or                91               57%               43%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                95               56%               44%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            42               75%               25%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              1                0%                100%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -89-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.27 How do you feel about your decision not to report the behavior you observed? [Check all that apply]
  (b) Knowing what I know now, I would report my concerns.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     229               93%                8%
 (1) General Schedule or                91               93%                7%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                95               91%                9%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            42              100%                0%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              1               100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -90-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.27 How do you feel about your decision not to report the behavior you observed? [Check all that apply]
 (c) I feel bad about not reporting.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     229               91%                9%
 (1) General Schedule or                91               89%               11%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                95               96%                4%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            42              100%                0%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              1               100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -91-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.27 How do you feel about your decision not to report the behavior you observed? [Check all that apply]
 (d) I feel good about not reporting.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     229              100%                0%
 (1) General Schedule or                91              100%                0%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                95              100%                0%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            42              100%                0%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              1               100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -92-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.27 How do you feel about your decision not to report the behavior you observed? [Check all that apply]
 (e) I am sure someone else reported it.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     229               95%                5%
 (1) General Schedule or                91               94%                6%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                95               96%                4%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            42               80%               20%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              1               100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -93-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.27 How do you feel about your decision not to report the behavior you observed? [Check all that apply]
 (f) This is just not something I am concerned about.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     229               90%               10%
 (1) General Schedule or                91               89%               11%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                95               91%                9%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            42              100%                0%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              1               100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -94-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.27 How do you feel about your decision not to report the behavior you observed? [Check all that apply]
 (g) They do not pay me enough to take a personal risk.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     229               88%               12%
 (1) General Schedule or                91               84%               16%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                95               99%                1%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            42              100%                0%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              1               100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -95-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.27 How do you feel about your decision not to report the behavior you observed? [Check all that apply]
 (h) None of the above.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     229               66%               34%
 (1) General Schedule or                91               68%               32%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                95               62%               38%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            42               50%               50%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              1               100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -96-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.28 What helped you decide to report the behavior you observed? [Check all that apply]
 (a) Information in the annual certification I sign stating that I’m aware of and have not violated these
 restrictions



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     159               83%               17%
 (1) General Schedule or                44               84%               16%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                56               80%               20%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            57               83%               17%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              2               100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -97-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.28 What helped you decide to report the behavior you observed? [Check all that apply]
 (b) Ethics training I received



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     159               37%               63%
 (1) General Schedule or                44               36%               64%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                56               40%               60%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            57               33%               67%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              2                0%                100%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -98-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.28 What helped you decide to report the behavior you observed? [Check all that apply]
 (c) Assurance that my report would be kept confidential or anonymous



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     159               89%               11%
 (1) General Schedule or                44               88%               12%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                56               88%               13%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            57               83%               17%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              2               100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -99-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.28 What helped you decide to report the behavior you observed? [Check all that apply]
 (d) Supportive, open work environment at my location



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     159               88%               12%
 (1) General Schedule or                44               91%                9%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                56               80%               20%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            57               83%               17%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              2               100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -100-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.28 What helped you decide to report the behavior you observed? [Check all that apply]
 (e) My personal beliefs



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     159               27%               73%
 (1) General Schedule or                44               23%               77%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                56               28%               73%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            57               40%               60%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              2               100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -101-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.28 What helped you decide to report the behavior you observed? [Check all that apply]
 (f) Other



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     159               90%               10%
 (1) General Schedule or                44               91%                9%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                56               90%               10%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            57               83%               17%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              2               100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -102-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.29 How did you report the behavior you observed? [Check all that apply]
 (a) Communicated my concern to local management.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     159               27%               73%
 (1) General Schedule or                44               25%               75%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                56               29%               71%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            57               50%               50%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              2                0%                100%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -103-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.29 How did you report the behavior you observed? [Check all that apply]
 (b) Filed a report with my agency’s ethics officer.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     159               86%               14%
 (1) General Schedule or                44               91%                9%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                56               78%               22%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            57               67%               33%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              2               100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -104-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.29 How did you report the behavior you observed? [Check all that apply]
 (c) Communicated my concern to someone else in DoD.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     159               75%               25%
 (1) General Schedule or                44               75%               25%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                56               75%               25%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            57               60%               40%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              2               100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -105-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.29 How did you report the behavior you observed? [Check all that apply]
 (d) Communicated my concern to someone outside of DoD.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                     159               94%                6%
 (1) General Schedule or                44               91%                9%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                56               98%                2%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            57              100%                0%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              2               100%                0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -106-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.30 Was the person who violated the restrictions on post-Government employment investigated or subjected
to adverse action?



 Pay Groups                                   n Size         Yes             No         Do not know    How to use this table
 Target Population                             159          10%             35%            55%
 (1) General Schedule or similar, grade         44           3%             38%            59%        1. The numbers on the first
                                                                                                      column (n Size) represent
 12-13; Military Grade Group O-3 to O-4
                                                                                                      the actual number of
 (2) General Schedule or similar, grade         56          15%             30%            55%        responses per question.
 14-15; Military Grade Group O-5 to O-6                                                               2. The Target population
 (3) SES, SL, or equivalent; Military           57          50%             17%            33%        percentages are weighted
 Grade Group O-7 to O-10                                                                              to reflect pay groups’
 (4) Other                                      2           50%             50%            0%         proportional representation
                                                                                                      in the DoD-A&S
                                                                                                      Population.




 Certain Materials, © 2006 Ethics Resource Center

                                                           -107-
                                                                                                        Ethics Resource Center
                                       DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                         Survey Response Tables



Q.31 Overall, how satisfied were you with DoD’s response to your report of the behavior?



 Pay Groups                   n Size         Very      Satisfied     Neither satisfied   Dissatisfied      Very         How to use this table
                                           satisfied                 nor dissatisfied                   dissatisfied
 Target Population            159            7%          11%               43%              26%            14%         1. The numbers on the first
 (1) General Schedule or       44            5%           9%               41%              27%            18%         column (n Size) represent
 similar, grade 12-13;                                                                                                 the actual number of
 Military Grade Group O-3                                                                                              responses per question.
 to O-4                                                                                                                2. The Target population
                                                                                                                       percentages are weighted
 (2) General Schedule or       56            7%          12%               46%              27%            7%          to reflect pay groups’
 similar, grade 14-15;                                                                                                 proportional representation
 Military Grade Group O-5                                                                                              in the DoD-A&S
 to O-6                                                                                                                Population.
 (3) SES, SL, or               57           17%          33%               33%              17%            0%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                      2           50%          0%                50%               0%            0%




 Certain Materials, © 2006 Ethics Resource Center

                                                                   -108-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.32 Please tell us why you were dissatisfied. [Check all that apply]
 (a) Management did not respond.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                      47               57%               43%
 (1) General Schedule or                21               57%               43%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                19               57%               43%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            7                0%                100%         proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              0                0%                 0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -109-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.32 Please tell us why you were dissatisfied. [Check all that apply]
 (b) The issue I raised was hidden, or covered up, and no corrective action was taken.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                      47               64%               36%
 (1) General Schedule or                21               57%               43%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                19               79%               21%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            7               100%                0%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              0                0%                 0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -110-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.32 Please tell us why you were dissatisfied. [Check all that apply]
 (c) Management told me what they did in response, but I did not believe them.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                      47               92%                8%
 (1) General Schedule or                21               89%               11%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                19               93%                7%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            7               100%                0%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              0                0%                 0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -111-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.32 Please tell us why you were dissatisfied. [Check all that apply]
 (d) Corrective action was not severe or complete enough.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                      47               92%                8%
 (1) General Schedule or                21               95%                5%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                19               86%               14%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            7               100%                0%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              0                0%                 0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -112-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.32 Please tell us why you were dissatisfied. [Check all that apply]
 (e) I experienced retaliation by my superiors or coworkers as a result of my report of misconduct.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                      47               92%                8%
 (1) General Schedule or                21               89%               11%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                19               93%                7%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            7               100%                0%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              0                0%                 0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -113-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.32 Please tell us why you were dissatisfied. [Check all that apply]
 (f) Other reason(s) not included in this list.



 Pay Groups                           n Size             No                 Yes          How to use this table
 Target Population                      47               67%               34%
 (1) General Schedule or                21               76%               24%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or                19               43%               57%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;            7                0%                100%         proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              0                0%                 0%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -114-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.33 If you had observed any behavior violating post-Government employment restrictions in the last year,
would you have reported it?



 Pay Groups                   n Size       Yes        Probably    Probably not    No       Do not know    How to use this table
 Target Population            2512         33%          36%           13%         1%          16%
 (1) General Schedule or      1043         32%          36%           13%         2%          18%        1. The numbers on the first
                                                                                                         column (n Size) represent
 similar, grade 12-13;
                                                                                                         the actual number of
 Military Grade Group O-3                                                                                responses per question.
 to O-4                                                                                                  2. The Target population
 (2) General Schedule or      835          36%          39%           13%         1%          12%        percentages are weighted
 similar, grade 14-15;                                                                                   to reflect pay groups’
 Military Grade Group O-5                                                                                proportional representation
 to O-6                                                                                                  in the DoD-A&S
 (3) SES, SL, or              594          57%          30%           5%          2%          7%         Population.
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     40          30%          33%           13%         3%          23%




 Certain Materials, © 2006 Ethics Resource Center

                                                              -115-
                                                                                                        Ethics Resource Center
                                       DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                         Survey Response Tables



Q.34 DoD personnel take personal responsibility for knowing, understanding, and complying with the post-
Government employment restrictions.



 Pay Groups                   n Size       Strongly      Agree       Neither Agree   Disagree   Strongly    How to use this table
                                            Agree                    nor Disagree               Disagree
 Target Population            3134           9%           43%            37%          10%         1%       1. The numbers on the first
 (1) General Schedule or      1273           9%           41%            39%          10%         1%       column (n Size) represent
 similar, grade 12-13;                                                                                     the actual number of
 Military Grade Group O-3                                                                                  responses per question.
 to O-4                                                                                                    2. The Target population
                                                                                                           percentages are weighted
 (2) General Schedule or      1074           10%          50%            31%           8%         1%       to reflect pay groups’
 similar, grade 14-15;                                                                                     proportional representation
 Military Grade Group O-5                                                                                  in the DoD-A&S
 to O-6                                                                                                    Population.
 (3) SES, SL, or              739            20%          55%            21%           4%         0%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48            6%           27%            56%          10%         0%




 Certain Materials, © 2006 Ethics Resource Center

                                                                 -116-
                                                                                                        Ethics Resource Center
                                       DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                         Survey Response Tables



Q.35 Senior personnel in DoD are held accountable if they are caught violating the post-Government
employment restrictions.



 Pay Groups                   n Size       Strongly      Agree       Neither Agree   Disagree   Strongly    How to use this table
                                            Agree                    nor Disagree               Disagree
 Target Population            3134           14%          32%            33%          16%         5%       1. The numbers on the first
 (1) General Schedule or      1273           14%          31%            34%          17%         5%       column (n Size) represent
 similar, grade 12-13;                                                                                     the actual number of
 Military Grade Group O-3                                                                                  responses per question.
 to O-4                                                                                                    2. The Target population
                                                                                                           percentages are weighted
 (2) General Schedule or      1074           13%          34%            31%          15%         5%       to reflect pay groups’
 similar, grade 14-15;                                                                                     proportional representation
 Military Grade Group O-5                                                                                  in the DoD-A&S
 to O-6                                                                                                    Population.
 (3) SES, SL, or              739            32%          44%            19%           4%         1%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48            6%           40%            35%          15%         4%




 Certain Materials, © 2006 Ethics Resource Center

                                                                 -117-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.36 Junior personnel in DoD are held accountable if they are caught violating the post-Government
employment restrictions.



 Pay Groups                   n Size     Strongly      Agree       Neither Agree   Disagree   Strongly    How to use this table
                                          Agree                    nor Disagree               Disagree
 Target Population            3134        15%          41%             37%           6%         1%       1. The numbers on the first
 (1) General Schedule or      1273        15%          41%             37%           6%         1%       column (n Size) represent
 similar, grade 12-13;                                                                                   the actual number of
 Military Grade Group O-3                                                                                responses per question.
 to O-4                                                                                                  2. The Target population
                                                                                                         percentages are weighted
 (2) General Schedule or      1074        14%          42%             37%           5%         1%       to reflect pay groups’
 similar, grade 14-15;                                                                                   proportional representation
 Military Grade Group O-5                                                                                in the DoD-A&S
 to O-6                                                                                                  Population.
 (3) SES, SL, or              739         18%          45%             32%           5%         0%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48          6%          42%             48%           4%         0%




 Certain Materials, © 2006 Ethics Resource Center

                                                               -118-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.37 The only people who are ever held accountable if they are caught violating the post-Government
employment restrictions are those in the acquisition workforce (i.e., procurement or contract administration).



 Pay Groups                   n Size     Strongly      Agree       Neither Agree   Disagree   Strongly    How to use this table
                                          Agree                    nor Disagree               Disagree
 Target Population            3134         4%          15%             50%          25%         4%       1. The numbers on the first
 (1) General Schedule or      1273         4%          15%             52%          25%         5%       column (n Size) represent
 similar, grade 12-13;                                                                                   the actual number of
 Military Grade Group O-3                                                                                responses per question.
 to O-4                                                                                                  2. The Target population
                                                                                                         percentages are weighted
 (2) General Schedule or      1074         6%          17%             47%          26%         4%       to reflect pay groups’
 similar, grade 14-15;                                                                                   proportional representation
 Military Grade Group O-5                                                                                in the DoD-A&S
 to O-6                                                                                                  Population.
 (3) SES, SL, or              739          3%          13%             40%          36%         8%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48          2%          21%             52%          25%         0%




 Certain Materials, © 2006 Ethics Resource Center

                                                               -119-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.38 My coworkers/peers carefully consider ethical issues when making work-related decisions.



 Pay Groups                   n Size     Strongly     Agree       Neither Agree   Disagree   Strongly    How to use this table
                                          Agree                   nor Disagree               Disagree
 Target Population            3134        15%          52%            27%           5%         1%       1. The numbers on the first
 (1) General Schedule or      1273        14%          50%            30%           5%         1%       column (n Size) represent
 similar, grade 12-13;                                                                                  the actual number of
 Military Grade Group O-3                                                                               responses per question.
 to O-4                                                                                                 2. The Target population
                                                                                                        percentages are weighted
 (2) General Schedule or      1074        17%          55%            21%           6%         1%       to reflect pay groups’
 similar, grade 14-15;                                                                                  proportional representation
 Military Grade Group O-5                                                                               in the DoD-A&S
 to O-6                                                                                                 Population.
 (3) SES, SL, or              739         32%          54%            12%           1%         0%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48          8%          56%            29%           4%         2%




 Certain Materials, © 2006 Ethics Resource Center

                                                              -120-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.39 My supervisor carefully considers ethical issues when making work-related decisions.



 Pay Groups                   n Size     Strongly     Agree       Neither Agree   Disagree   Strongly    How to use this table
                                          Agree                   nor Disagree               Disagree
 Target Population            3134        24%          49%            22%           3%         2%       1. The numbers on the first
 (1) General Schedule or      1273        21%          49%            25%           3%         2%       column (n Size) represent
 similar, grade 12-13;                                                                                  the actual number of
 Military Grade Group O-3                                                                               responses per question.
 to O-4                                                                                                 2. The Target population
                                                                                                        percentages are weighted
 (2) General Schedule or      1074        32%          48%            15%           3%         1%       to reflect pay groups’
 similar, grade 14-15;                                                                                  proportional representation
 Military Grade Group O-5                                                                               in the DoD-A&S
 to O-6                                                                                                 Population.
 (3) SES, SL, or              739         51%          37%            11%           1%         0%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48         10%          60%            23%           4%         2%




 Certain Materials, © 2006 Ethics Resource Center

                                                              -121-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.40 At my workplace, personnel are disciplined when they violate DoD’s standards of ethical conduct in
general.



 Pay Groups                   n Size     Strongly     Agree       Neither Agree   Disagree   Strongly    How to use this table
                                          Agree                   nor Disagree               Disagree
 Target Population            3134         8%          30%            52%           8%         2%       1. The numbers on the first
 (1) General Schedule or      1273         7%          27%            56%           8%         2%       column (n Size) represent
 similar, grade 12-13;                                                                                  the actual number of
 Military Grade Group O-3                                                                               responses per question.
 to O-4                                                                                                 2. The Target population
                                                                                                        percentages are weighted
 (2) General Schedule or      1074         8%          39%            45%           6%         2%       to reflect pay groups’
 similar, grade 14-15;                                                                                  proportional representation
 Military Grade Group O-5                                                                               in the DoD-A&S
 to O-6                                                                                                 Population.
 (3) SES, SL, or              739         24%          47%            28%           1%         0%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48          4%          33%            52%          10%         0%




 Certain Materials, © 2006 Ethics Resource Center

                                                              -122-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.41 My supervisor rewards personnel who get good results, even if they violate DoD’s standards of ethical
conduct.



 Pay Groups                   n Size     Strongly      Agree      Neither Agree   Disagree   Strongly    How to use this table
                                          Agree                   nor Disagree               Disagree
 Target Population            3134         1%           3%             27%         45%        24%       1. The numbers on the first
 (1) General Schedule or      1273         1%           4%             29%         44%        22%       column (n Size) represent
 similar, grade 12-13;                                                                                  the actual number of
 Military Grade Group O-3                                                                               responses per question.
 to O-4                                                                                                 2. The Target population
                                                                                                        percentages are weighted
 (2) General Schedule or      1074         1%           2%             21%         47%        29%       to reflect pay groups’
 similar, grade 14-15;                                                                                  proportional representation
 Military Grade Group O-5                                                                               in the DoD-A&S
 to O-6                                                                                                 Population.
 (3) SES, SL, or              739          0%           1%             11%         39%        49%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48          0%           2%             29%         56%        13%




 Certain Materials, © 2006 Ethics Resource Center

                                                               -123-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.42 My coworkers/peers show respect for personnel who get good results, even if they violate DoD’s
standards of ethical conduct.



 Pay Groups                   n Size     Strongly     Agree      Neither Agree   Disagree   Strongly     How to use this table
                                          Agree                  nor Disagree               Disagree
 Target Population            3134         1%          4%             30%         46%         20%      1. The numbers on the first
 (1) General Schedule or      1273         1%          4%             33%         45%         18%      column (n Size) represent
 similar, grade 12-13;                                                                                 the actual number of
 Military Grade Group O-3                                                                              responses per question.
 to O-4                                                                                                2. The Target population
                                                                                                       percentages are weighted
 (2) General Schedule or      1074         0%          4%             23%         48%         25%      to reflect pay groups’
 similar, grade 14-15;                                                                                 proportional representation
 Military Grade Group O-5                                                                              in the DoD-A&S
 to O-6                                                                                                Population.
 (3) SES, SL, or              739          0%          1%             12%         43%         43%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48          0%          2%             33%         52%         13%




 Certain Materials, © 2006 Ethics Resource Center

                                                              -124-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.43 How long have you worked for the Federal Government?


 Pay Groups                   n Size    Less than   One year to   Six years to   Eleven years   More than    How to use this table
                                        one year     five years     10 years      to 20 years    20 years
 Target Population            3134        0%            8%            5%            25%           61%       1. The numbers on the first
 (1) General Schedule or      1273        0%           10%            7%            28%           55%       column (n Size) represent
 similar, grade 12-13;                                                                                      the actual number of
 Military Grade Group O-3                                                                                   responses per question.
 to O-4                                                                                                     2. The Target population
                                                                                                            percentages are weighted
 (2) General Schedule or      1074        0%           2%             2%            20%           76%       to reflect pay groups’
 similar, grade 14-15;                                                                                      proportional representation
 Military Grade Group O-5                                                                                   in the DoD-A&S
 to O-6                                                                                                     Population.
 (3) SES, SL, or              739         0%           3%             1%             4%           92%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                     48         0%           21%            8%            27%           44%




 Certain Materials, © 2006 Ethics Resource Center

                                                              -125-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.44 What are your financial disclosure responsibilities?



Pay Groups                                 I file a Public   I file a Confidential      I am not           I do not      How to use this table
                                 n Size       Financial      Financial Disclosure    required to file     know my
                                             Disclosure      Report (OGE Form          a financial      filing status
                                                                                                                        1. The numbers on the first
                                          Report (SF 278)      450, 450A, or an        disclosure
                                                                agency-specific          report                         column (n Size) represent
                                                                  alternative)                                          the actual number of
                                                                                                                        responses per question.
Target Population                3134           5%                  58%                   31%               6%
                                                                                                                        2. The Target population
(1) General Schedule or          1273           3%                  52%                   37%               8%          percentages are weighted
similar, grade 12-13; Military                                                                                          to reflect pay groups’
Grade Group O-3 to O-4                                                                                                  proportional representation
(2) General Schedule or          1074           2%                  80%                   15%               2%          in the DoD-A&S
similar, grade 14-15; Military                                                                                          Population.
Grade Group O-5 to O-6
(3) SES, SL, or equivalent;      739           88%                  12%                    0%               0%
Military Grade Group O-7 to
O-10
(4) Other                         48            4%                  40%                   42%              15%




 Certain Materials, © 2006 Ethics Resource Center

                                                                  -126-
                                                                                                    Ethics Resource Center
                                   DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                     Survey Response Tables



Q.45 What is your pay grade?



 Pay Groups                       Unweighted n   Unweighted    Weighted    Weighted        95%          How to use this table
                                     Size        Percentage     n Size    Percentage    confidence
                                                                                         interval
                                                                                                     1. The data for the Target
 Target Population                   3134           100%         3134       100%          1.73       population has a sampling
 (1) General Schedule or             1273            41%         2238       71%           2.72       error of +/- 1.73% at the 95%
 similar, grade 12-13; Military                                                                      confidence level.
 Grade Group O-3 to O-4                                                                              2. All error levels, both for
 (2) General Schedule or             1074           34%          773         25%          2.91       the Target population and the
                                                                                                     pay groups, are for the survey
 similar, grade 14-15; Military
                                                                                                     as whole, not any specific
 Grade Group O-5 to O-6                                                                              question.
 (3) SES, SL, or equivalent;          739           24%           75         2%           2.88       3. The numbers on the
 Military Grade Group O-7 to                                                                         Unweighted columns
 O-10                                                                                                represent the actual number
 (4) Other                            48            2%            48         2%            n/a       of responses per question.
                                                                                                     The numbers in the Weighted
                                                                                                     columns represent that
                                                                                                     group’s proportional
                                                                                                     representation in the DoD-
                                                                                                     A&S Population.




 Certain Materials, © 2006 Ethics Resource Center

                                                              -127-
                                                                                                     Ethics Resource Center
                                    DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                      Survey Response Tables



Q.46 What is your service affiliation?



 Pay Groups                   n Size      Civilian    Air Force       Army      Marine        Navy       How to use this table
                                                                                Corps
 Target Population            1814         45%          6%            23%         2%          24%      1. The numbers on the first
 (1) General Schedule or        1           0%          0%             0%         0%         100%      column (n Size) represent
 similar, grade 12-13;                                                                                 the actual number of
 Military Grade Group O-3                                                                              responses per question.
 to O-4                                                                                                2. The Target population
                                                                                                       percentages are weighted
 (2) General Schedule or      1074         46%          5%            23%         2%          24%      to reflect pay groups’
 similar, grade 14-15;                                                                                 proportional representation
 Military Grade Group O-5                                                                              in the DoD-A&S
 to O-6                                                                                                Population.
 (3) SES, SL, or              739          36%          15%           28%         3%          18%
 equivalent; Military Grade
 Group O-7 to O-10
 (4) Other                      0




 Certain Materials, © 2006 Ethics Resource Center

                                                              -128-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.47 What is your work location?



 Pay Groups                          n Size         Washington, D.C. Metro   Other U. S.    How to use this table
                                                    Area (includes DC, MD,    Location
                                                        VA, and WV)
                                                                                           1. The numbers on the first
 Target Population                   3134                   25%                 75%        column (n Size) represent
 (1) General Schedule or             1273                   18%                 82%        the actual number of
 similar, grade 12-13; Military                                                            responses per question.
 Grade Group O-3 to O-4                                                                    2. The Target population
 (2) General Schedule or             1074                   40%                 60%        percentages are weighted
                                                                                           to reflect pay groups’
 similar, grade 14-15; Military
                                                                                           proportional representation
 Grade Group O-5 to O-6                                                                    in the DoD-A&S
 (3) SES, SL, or equivalent;          739                   64%                 36%        Population.
 Military Grade Group O-7 to
 O-10
 (4) Other                             48                   23%                 77%




 Certain Materials, © 2006 Ethics Resource Center

                                                                -129-
                                                                                                   Ethics Resource Center
                                  DoD Acquisition Workforce and Senior Officials post-Government Employment Survey Report:
                                                                                                    Survey Response Tables



Q.48 Do you hold a supervisory position?



 Pay Groups                           n Size             Yes                No           How to use this table
 Target Population                    3127               29%               71%
 (1) General Schedule or              1272               15%               85%          1. The numbers on the first
                                                                                        column (n Size) represent
 similar, grade 12-13; Military
                                                                                        the actual number of
 Grade Group O-3 to O-4                                                                 responses per question.
 (2) General Schedule or              1069               63%               37%          2. The Target population
 similar, grade 14-15; Military                                                         percentages are weighted
 Grade Group O-5 to O-6                                                                 to reflect pay groups’
 (3) SES, SL, or equivalent;           738               96%                4%          proportional representation
 Military Grade Group O-7 to                                                            in the DoD-A&S
 O-10                                                                                   Population.
 (4) Other                              48               21%               79%




 Certain Materials, © 2006 Ethics Resource Center

                                                           -130-
                                             DEPARTMENT OF DEFENSE
                                          OFFICE OF INSPECTOR GENERAL




                                                         MISSION STATEMENT




The Office of the Inspector General promotes integrity, accountability, and improvement of
          Department of Defense personnel, programs and operations to support
                  the Department's mission and to serve the public interest.




               On the Cover:
               We have chosen the Statue of Freedom from the United States Capitol as a symbol to be reflected in our report
               covers.

               The bronze Statue of Freedom was designed by American sculptor Thomas Crawford in 1857-1859. Crawford
               described his creation as being readily understandable by the American people:
                 I have endeavored to represent Freedom triumphant __ in Peace and War . . . In her left hand she holds the olive
                 branch while the right hand rests on a sword which sustains the Shield of the United States. These emblems
                 are such as the mass of our people will easily understand . . . I have introduced a base surrounded by wreaths
                 indicative of the rewards Freedom is ready to bestow . . .

               Allen, William C. , The Dome of the United States Capitol: An Architectural History. Prepared under the Direction of George M. White, FAIA,




                                                                                                                                                             hot line
               Architect of the Capitol, U.S. Government Printing Office Washington: 1992                                                                    D E PA R T M E N T O F D E F E N S E
                                                                                                                                                                                                    To report fraud, waste, mismanagement, and abuse of authority.
                                                                                                                                                                                                    Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                                                                                                                                                                                    Phone: 800.424.9098         e-mail: hotline@dodig.mil       www.dodig.mil/hotline
       If you suspect Fraud, Waste, Abuse, or Mismanagement in the Department of Defense, please contact us.
               Phone: 800.424.9098                    E-mail: hotline@dodig.mil                      Web site: www.dodig.mil/hotline
